    Department of Defense
  Office of Inspector General
   4800 Mark Center Drive
  Alexandria, VA 22350-1500
This report is available online at:
        www.dodig.mil


                                                                              United States Department of Defense 

                                                                              Office of Inspector General




                                                                                 Contingency Contracting:
                                                                                 A Framework for Reform 

                                                                                      2012 Update

                                        DEPARTMENT OF DEFENSE

                                              Hotline
                                      1-800-424-9098 • DSN: 312-664-1151   Report No. DODIG-2012-134    September 18, 2012

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
CERP                          Commander’s Emergency Response Program
COR                           Contracting Officer’s Representative
CRC                           Continental U.S. Replacement Center
DCIS                          Defense Criminal Investigative Service
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FSR                           Field Service Representative
INL                           Bureau of International Narcotics and Law Enforcement
                               Affairs
KBR                           Kellogg, Brown, and Root Services, Inc.
LBG                           Louis Berger Group, Inc.
LCC                           Laguna Construction Company, Inc.
LOGCAP                        Logistics Civil Augmentation Program
MRAP                          Mine Resistant Ambush Protected
OCO                           Overseas Contingency Operations
PM SEQ                        Program Manager Soldier Equipment
QASP                          Quality Assurance Surveillance Plan
TAFGA                         Tamimi Global Company Ltd
U.S.C.                        United States Code
                               INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                              4800 MARK CENTER DR IVE 

                           ALEXANDRIA, VIRGINIA 22350-1500 


                                                                      September 18, 2012

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Contingency Contracting: A Framework for Reform- 2012 Update
         (Report No. DODIG-2012-134)

We are providing this report for your information and use. We did not issue a draft
repori. This repori is based on our consolidation of 3 8 reports prepared by DoD Office of
Inspector General personnel and press releases related to 20 fraud investigations issued
fi:om April2, 2010, through March 31 , 2012, regarding DoD's contingency contracting.
These reports and investigations identified a variety of problems relating to DoD officials
not properly awarding, administering, or managing contingency contracts in accordance
with Federal and DoD policies.

We are providing this report as an update to the previous DoD Office of Inspector
General Report No. D-2010-059, "Contingency Contracting: A Framework for Reform,"
May 14, 2010, and are re-emphasizing the ongoing problems identified in the previous
report. This report provides a framework and tool for contracting personnel to use when
assessing their contracting operations to ensure DoD implements the best practices and
identifies vulnerabilities to fraud, waste, and abuse. This report contains no
recommendations; therefore, we do not require written comments.

We appreciate the coutiesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).



                                              f~~daJ~
                                              acq line L. Wicecarver
                                             Assistant Inspector General
                                             Acquisition and Contract Management
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND

   LOGISTICS
DIRECTOR, DEFENSE PROCUREMENT AND ACQUISITION POLICY
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
   OFFICER, DOD
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. SPECIAL OPERATIONS COMMAND
COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCE/U.S.
   FORCES-AFGHANISTAN
COMMANDER, NATO TRAINING MISSION-AFGHANISTAN/COMBINED
   SECURITY TRANSITION COMMAND-AFGHANISTAN
COMMANDER, JOINT THEATER SUPPORT CONTRACTING COMMAND
CHIEF, NATIONAL GUARD BUREAU
DOD CHIEF INFORMATION OFFICER
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
  AND COMPTROLLER)
DIRECTOR, JOINT STAFF
DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE
SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION
Report No. D-2012-134 (Project No. D2012-D000CD-0141.000)	                                        September 18, 2012


                Results in Brief: Contingency Contracting:
                A Framework for Reform – 2012 Update
                                                         investigations affected 3 contracting areas:
What We Did                                              source selection, oversight and surveillance, and
Our overall objective was to provide DoD field           financial management.
commanders and contract managers with
information on contracting problems related to           What Has Been Done
contingency operations that the DoD Office of            The 38 DoD OIG reports contained
Inspector General (OIG) identified and reported          311 recommendations addressing 9 systemic
from April 2, 2010, through March 31, 2012.              contracting problem areas. As of
In this report, we discuss current contingency           August 21, 2012, 263 audit report
contracting problems, as well as re-emphasize            recommendations have been closed while the
ongoing problems identified in the DoD OIG               remaining 48 recommendations are still open.
Report No. D-2010-059, “Contingency                      For the five most prevalent problem areas,
Contracting: A Framework for Reform,”                    DoD OIG personnel recommended DoD to:
May 14, 2010. Since issuing that report,
DoD OIG personnel issued 38 reports and were                  •	 develop quality assurance surveillance
involved with 20 fraud investigations pertaining                 plans and properly designate contracting
to Overseas Contingency Operations. These                        officer’s representatives;
reports and investigations identified a variety of            •	 review all invoices and reconcile the
problems relating to DoD officials not properly                  services and products received;
awarding, administering, or managing                          •	 properly determine fair and reasonable
contingency contracts in accordance with                         prices;
Federal and DoD policies.                                     •	 properly define and compete all

                                                                 requirements; and

What We Found                                                 •	 establish records and maintain
We reviewed the 38 reports and identified                        accountability for Government property.
9 systemic contracting problem areas relating to
contingency operations. The five most                    In addition, the 20 fraud investigations resulted
prevalent problem areas reported were:                   in prison sentences, fines, restitution, and
                                                         criminal and civil settlement agreements.
1.	   Oversight and Surveillance,
2.	   Financial Management,
3.	   Contract Pricing,
4.	   Requirements, and
5.	   Property Accountability.

Additionally, we reviewed the 20 fraud
investigations uncovering criminal offenses that
occurred during contract award and
administration phases. The 20 fraud                      Source: U.S. Defense Imagery Web site.




                                                     i
Report No. D-2012-134 (Project No. D2012-D000CD-0141.000)	                        September 18, 2012


What Needs to Be Done                                 Resources
Although the United States completed its              The “Key Aspects of the Contracting Process”
military drawdown from Iraq, the United States        flowchart on page iii and the “Fraud Indicators
continues to train and equip the Iraq Security        and Poor Practices in Relation to the
Forces. As of July 2012, DoD had                      Contracting Problem Areas” flowchart on
7,336 contractor personnel and no operational         page iv are useful resources to DoD field
military presence in Iraq. In Afghanistan, DoD        commanders and contract managers. These
had 113,736 contractor personnel and                  flowcharts provide:
approximately 95,400 military personnel. The
effectiveness of contractor support of U.S.              •	 a visual tool for field commanders and
contingency operations could be compromised                 contracting officers to assess the
if DoD officials fail to apply lessons learned              strengths and weaknesses in their
from Iraq and Afghanistan. DoD officials                    contracting approaches,
should review the identified problems and                •	 information to encourage real-time
develop a framework to achieve better                       awareness of areas that might be
contracting performance for future contingency              susceptible to fraud and contributors to
operations.                                                 waste and abuse, and
                                                         •	 a useful snapshot of key contract
                                                            problems and fraud indicators related to
                                                            contingency operations.




                                                 ii
Table of Contents
Results in Brief	                                                                   i


       Key Aspects of the Contracting Process                                       iii

       Fraud Indicators and Poor Practices in Relation to the Contracting

              Problem Areas                                                         iv


Introduction	                                                                       1


       Objectives                                                                   1

       Background on Contingency Contracting                                        1


Problems in Contingency Contracting Operations	                                     4


       1.	 Requirements Were Unclear/Changing, Out-of-Scope, and 

              Incomplete                                                            4

       2. Contract File Not Maintained	                                             7

       3. Use of Inappropriate Contract Type	                                       9

       4. Source Selection Without Full and Open Competition	                      11

       5. Contract Price Reasonableness Was Not Adequately Determined              13

       6. Inadequate Oversight and Surveillance	                                   14

       7. Contractor Personnel Performed Prohibited Functions	                     22

       8. Property Accountability Not Properly Maintained	                         26

       9. Financial Management Not Adequate	                                       27


       What Has Been Done Based on Our Audits                                      30

       What Needs to Be Done to Improve Contingency Contracting                    34

       Summary                                                                     37

       Contingency Contracting Problems Identified by DoD Office of Inspector 

              General Reports                                                      39


Fraudulent Activities in Overseas Contingency Contracting	                         40


       Ongoing Investigations                                                      40

       Results of Investigations                                                   41

       Examples of Investigations by Contracting Areas                             42

       Summary                                                                     48

       Reported Results of Defense Criminal Investigation Service Overseas

              Contingency Operations Investigations From April 2, 2010 Through 

              March 31, 2012                                                       49

Table of Contents (cont’d)
Appendices

      A. 	Scope and Methodology                                              50

              Use of Computer-Processed Data                                 51

              Prior Coverage                                                 51

      B. Contracting Problem Areas by Audit Report Matrix	                   52

      C. 	Comparing Contingency Contracting Problems Between Current and 

              Prior DoD Office of Inspector General Summary Reports          53

      D. 	Status of Open Recommendations in Prior Contingency Contracting

              Summary Report                                                 55

      E. Fraud Indicators in the Contracting Process	                        56

      F. DoD Office of Inspector General Reports	                            60

Introduction
Objectives
Our overall objective was to provide DoD field commanders and contract managers with
information on contracting problems related to contingency operations that the DoD
Office of Inspector General (OIG) identified and reported from April 2, 2010, through
March 31, 2012. This report provides a contract framework and tool for contracting
personnel to use when assessing whether their contracting operations implement the best
contracting practices and identifying vulnerabilities to fraud, waste, and abuse. In this
report, we discuss current problems related to contingency contracting, as well as,
re-emphasize ongoing problems identified in the DoD OIG Report No. D-2010-059,
“Contingency Contracting: A Framework for Reform,” May 14, 2010. Appendix A
explains the scope and methodology we used in preparing this follow-up summary report.

Background on Contingency Contracting
Contingency contracting is used to procure supplies and services that directly support
domestic and overseas armed conflict and noncombat contingency operations (such as
stability operations and disaster relief efforts). A contingency contract is a legally
binding agreement awarded by Government contracting officers in the operational area as
well as contracts that have a prescribed area of performance within a designated
operational area. For contingency operations, DoD routinely relies on contractors to
provide front-line support and assist with the cradle-to-grave contracting process. These
contractors perform vital tasks in support of U.S. defense and development objectives,
including logistics support, equipment maintenance, fuel delivery, base operations
support, and security. However, DoD faced challenges in contracting to support
contingency operations because of poor requirements planning and lack of oversight over
contractor performance.

The “Key Aspects of the Contracting Process” flowchart on page iii and the “Fraud
Indicators and Poor Practices in Relation to the Contracting Problem Areas” flowchart on
page iv are useful resources to DoD field commanders and contract managers. These
flowcharts provide:

   •	 a visual tool for field commanders and contracting officers to assess the strengths
      and weaknesses in their contracting approaches;
   •	 information to encourage real-time awareness of areas that might be susceptible to
      fraud and contributors to waste and abuse; and
   •	 a useful snapshot of key contract problems and fraud indicators related to 

      contingency operations.


Drawdown of U.S. Military in Iraq and Afghanistan
Since 2011, DoD has conducted a complete drawdown of U.S. troops in Iraq and
developed plans for a withdrawal of troops in Afghanistan. In December 2011, the last of
the U.S. Forces-Iraq departed in accordance with an agreement between the United States


                                            1

and the Republic of Iraq. As part of the agreement, the United States will continue to
train and equip the Iraq Security Forces. For that reason, the United States continues to
rely on contractors to provide security and life support services, such as facility
operation, food services, and laundry. As of July 2012, there were 7,336 contractors in
Iraq.

In Afghanistan, the drawdown started in 2011 and will continue until the United States
hands over security to Afghan authorities in 2014. Although DoD is withdrawing troops,
the United States still relies heavily on contractors to provide front-line support in
Afghanistan. As of July 2012, DoD had 113,736 contractor personnel compared to
approximately 95,400 military personnel in Afghanistan.

The increased reliance on contractors to support contingency operations requires effective
contract management which helps avoid delays in providing support to the warfighter and
prevents wasteful spending. Specifically, DoD field commanders and contracting
personnel must validate that the DoD consistently receives quality goods and services in
a timely manner, and at a reasonable price while operating in contingency environments.

DoD Contract Spending On Overseas Contingency Operations
Beginning with the 2010 budget request, the Office of Management and Budget made
significant changes in the criteria for developing the DoD Overseas Contingency
Operations (OCO) budget request to provide more budget transparency and to more
accurately reflect the temporary and extraordinary requirements of OCO. The FY 2012
OCO budget requested $118 billion for the DoD, $107 billion for Operation Enduring
Freedom supporting activities in Afghanistan, and $11 billion for Operation New Dawn
supporting activities in Iraq. Figure 1 illustrates DoD OCO Budget Authority from
FY 2010 through FY 2012.

                                             Figure 1. DoD OCO Budget Authority
                                      $180
                                                    $162               $159
                                      $160
                                      $140
                                                                                        $118
                Billions of Dollars




                                      $120
                                      $100
                                       $80
                                       $60
                                       $40
                                       $20
                                        $0
                                               FY 2010 Enacted   FY 2011 Request   FY 2012 Request
             Source: White House Web site.




                                                                  2

Problems Summarized in Previous DoD OIG Report,
Contingency Contracting: A Framework for Reform
On May 14, 2010, DoD OIG issued the first summary report covering contingency 

contracting problems in 34 reports issued from October 1, 2007, through April 1, 2010. 

In that report, DoD OIG personnel identified 10 systemic contracting problem areas: 

requirements, contract documentation, contract type, source selection, contract pricing, 

oversight and surveillance, inherently governmental functions, property accountability, 

award fees, and financial management. Appendix C summarizes and compares the

numbers of reports addressing each contracting problem identified in

DoD OIG Report No. D-2010-059 and this summary report. 


In addition, DoD OIG personnel reported that DoD had not completed corrective actions

for 177 recommendations made from the 34 reports summarized in

DoD OIG Report No. D-2010-059. Appendix D provides the current status of

these recommendations. 





                                            3

Problems in Contingency Contracting
Operations
DoD OIG personnel issued 38 reports from April 2, 2010, through March 31, 2012, that
identified systemic contracting problems in supporting OCO. DoD OIG initiated audits
and investigations based on DoD management requests, statutory requirements, and
congressional requests.

These reports identified a variety of problems relating to DoD officials not properly
awarding, administering, or managing contingency contracts in accordance with Federal
and DoD policies. We grouped the deficiencies discussed in the reports into the
following nine contracting areas: 1

        1.   Requirements,
        2.   Contract Documentation,
        3.   Contract Type,
        4.   Source Selection,
        5.   Contract Pricing,
        6.   Oversight and Surveillance,
        7.   Contractor Personnel,
        8.   Property Accountability, and
        9.   Financial Management.

Of these problems, the five most prevalent problem areas reported were oversight and
surveillance, financial management, contract pricing, requirements, and property
accountability.

Appendix B contains a list of the contracting problem areas by report number. Many of
the reports identified more than one contracting problem area. Appendix F contains a list
of the 38 contingency contracting reports issued from April 2, 2010, through
March 31, 2012.

In addition, Appendix E provides a description of various fraud indicators at different
phases in the contracting process.

1. Requirements Were Unclear/Changing, Out-of-Scope,
and Incomplete
Nine contingency contracting reports identified requirements problems. Specifically,
DoD officials did not establish clear requirements, make sure changes were within the



1
  The previous summary report (DoD OIG Report No. D-2010-059) grouped deficiencies into 10 problem
areas, including Award Fees as one of the problem areas. For this report, we did not identify Award Fees
as a problem area.


                                                   4

scope of the contract, or include complete policy and training requirements. See
Appendix B for the nine reports that addressed the requirements problem.

Acquisition contracting begins when agencies identify their needs and requirements. The
program officials must define and describe agency requirements in clear, specific, and
                                          objective terms with measurable outcomes. If
   The program officials must define      program officials do not establish specific,
   and describe agency requirements       well-defined requirements, it will adversely
    in clear, specific, and objective     affect the contracting process. Contracting
   terms with measurable outcomes.        activities and their customers (the program
                                          office and requesting activity) should consider
both technical needs and business strategies when defining and specifying requirements.

In addition, contracting officers must make sure that specifications reflect only what is
needed to meet the mission requirements and that the statement of work, statement of
objectives, or performance work statement will not unnecessarily restrict competition or
innovation. Further, if changing requirements necessitate contract modifications, the
contracting officer must verify that the changes are within the scope of the original
contract prior to executing the modifications.

Criteria for Establishing Clear Requirements
Federal Acquisition Regulation (FAR) 7.104, “General Procedures,” states that
acquisition planning should begin as soon as the agency identifies a need. The FAR
prefers the agency to plan well in advance of the fiscal year in which contract award or
order placement is necessary. The agency should also avoid issuing requirements on an
urgent basis or with unrealistic delivery or performance schedules since it generally
restricts competition and increases prices. Early in the planning process, responsible
officials should coordinate to establish the requirements and to determine type, quality,
quantity, and delivery requirements.

Example of Unclear/Changing Requirements
       DoD may not have sufficient contracting personnel to process the increased
       number of containers as the drawdown from Iraq progresses. This occurred
       because the administrative contracting officer removed the performance workload
       requirement without proper authorization, written justification, or consideration in
       accordance with the FAR. As a result, the backlog of containers could increase
       from more than 520 containers in March 2010 to more than 2,290 containers in
       August 2010. The additional backlog could increase the likelihood that DoD may
       waste resources by purchasing the same materiel in the unprocessed containers for
       use in other OCO. (Report No. D-2010-091)

Criteria for Awarding Out-of-Scope Requirements
To ensure the safety of the warfighter and price reasonableness for procured goods and
services, it is vital that the Government compete requirements that are outside the
statement of work on which a contract is based. FAR Part 6, “Competition
Requirements,” requires contracting officers to promote and provide for full and open


                                            5

competition when awarding out-of-scope modifications to existing Government
contracts. The FAR requires the contracting officer to include a reference to the specific
authority of contract award when awarding the contract without full and open
competition. In addition, FAR 7.103, “Agency-head responsibilities,” requires the
agency head to ensure that the statement of work is closely aligned with performance
outcomes. By ensuring that the statement of work is closely aligned with the
expectations of the Government and by adequately promoting full and open competition,
the Government reduces the risk of harm to the warfighter and overpaying for goods and
services.

Example of Out-of-Scope Requirements
       A primary mission described in contract DACA63-03-D-0005, task order 3 was
       fighting oil fires at Qarmat Ali facility in Iraq. Enemy combat operations and
       sabotage did not result in the level of destruction anticipated, and by mid-April
       2003, the mission of Task Force Restore Iraqi Oil evolved into a focus on
       restoring, pumping, and refining
       capabilities to generate oil for export.            This contract modification
       On April 30, 2003, U.S. Army Corps               expanded the original scope and
       of Engineers modified DACA63-03-                             magnitude of
       D-0005, task order 3 to expand the              DACA63-03-D-0005, task order 3
       scope of work beyond emergency                    beyond the original emergency
       repairs. This contract modification                “minor repairs” to “restoring
       expanded the original scope and                  facilities to operating condition”
       magnitude of DACA63-03-D-0005,                  and coordinating operations with
       task order 3 beyond the original                              the Iraqis.
       emergency “minor repairs” to
       “restoring facilities to operating condition” and coordinating operations with the
       Iraqis. The contract modification also added pump stations, refineries, and oil
       fields to the list of facilities that would require “technical and managerial
       assistance” if not repair. This change of the scope and focus of the statement of
       work was significant, and occurred after Task Force Restore Iraqi Oil and
       contractor elements were deployed to Kuwait and had conducted initial site
       surveys in Iraq. The time was not available to plan and execute a deliberate
       response to the expanded scope of work. As a result of inadequate preparation,
       Service members and DoD civilian employees who served at Qarmat Ali were
       exposed to sodium dichromate and may suffer chronic health effects.
       (Report No. SPO-2011-009)

Criteria for Including Policy and Training Requirements
Contracting officials should use due diligence to ensure that contracts for contingency
operations include all applicable policy and training requirements. One example is
FAR clause 52.222-50, “Combating Trafficking in Persons.” As stated in FAR 22.1703,
“Policy,” the United States adopted a zero tolerance policy regarding trafficking in
persons. FAR 22.1705, “Contract Clause,” requires the contracting officer to include
FAR clause 52.222-50 in all solicitations and contracts. Contingency operations require
special emphasis on policy and training requirements because of the unique situations and


                                             6

locations personnel will encounter. Contracting officials’ failure to include all applicable
policy and training requirements for contractors working in contingency operations could
put the contractors, DoD civilian, and military personnel at risk of harm.

Example of Incomplete Policy and Training Requirements
       In the DoD OIG’s review of contracts for construction and services within the
       U.S. Central Command area of responsibility, DoD OIG personnel found 

       173 of 368 contracts either did not include or included an outdated or incorrect

       version of the FAR clause 52.222-50, “Combating Trafficking in Persons.”

       U.S. Central Command Contracting Command issued acquisition instructions

       requiring the addition of a regional combat trafficking in persons clause, without

       explicitly reinforcing inclusion of the required FAR clause. As a result,

       contractors remained unaware of U.S. Government policy and contracting officers

       were potentially unable to apply remedies in the case of violations.

       (Report No. SPO-2011-002)


2. Contract File Not Maintained
Five contingency contracting reports identified contract documentation problems.
Specifically, contracting officials did not prepare and maintain required contract
documentation to support decisions made as required by the FAR and Defense Federal
Acquisition Regulation Supplement (DFARS). See Appendix B for the five reports that
addressed the contract documentation problem.

The head of the contracting office and contract administration office should maintain a
contract file that contains records of all contractual actions taken during that contract.
                                             The documentation in the contract file should
    The head of the contracting office       support the rationale and actions taken for the
   and contract administration office        entire procurement process and support all
     should maintain a contract file         contractual actions taken. Specifically, the
       that contains records of all          contract file should contain documentation that
    contractual actions taken during         supports the basis of the acquisition and the
               that contract.                award of the contract; assignment of contract
                                             administration; the performance of contract
                                             administration responsibilities and duties; and
actions taken reflecting contract payment. Additionally, the contract file should provide a
complete audit trail to support future reviews, investigations, and congressional inquiries.

Contracting officials should maintain, at a minimum, the following documentation in the
contract file:

    •	 a signed copy of the awarded contract, all contract modifications, and documents
       that support the contract modifications;
    •	 justifications and approvals;
    •	 determinations and findings;
    •	 contract type justification;



                                             7

    •   source selection documentation;
    •   cost or price analysis;
    •   quality assurance and property records; and
    •   bills, invoices, vouchers, and supporting documents.

By maintaining a complete contract file containing records of all contractual actions,
contracting officials can support decision making, actions taken, and reviews and
investigations, as well as furnish essential facts in case of litigation or congressional
review.

Figure 2 shows a procuring contracting officer and a contract specialist discussing
contract detail in support of the Afghanistan National Police.

                   Figure 2. Contracting Officer Discussing Contract Detail




                       Source: U.S. Defense Imagery Web site.



Criteria for Maintaining Contract File
FAR Subpart 4.8, “Government Contract Files,” states that contract administration files
should document actions reflecting the basis for and the performance of contract
administration responsibilities to include official copies of supporting documentation.

DFARS Subpart 204.8, “Contract Files,” requires that official contract files consist of
original, authenticated, or conformed copies of contractual instruments, as well as signed
or official copies of correspondence, memoranda, and other documents. Each contract
file should provide a complete background for decision making, actions taken, and
reviews and investigations, as well as furnish essential facts in case of litigation or
congressional review.

Example of Contract File Not Maintained
        Program Executive Office for Simulation, Training, and Instrumentation
        contracting personnel could not support that they negotiated a reasonable price for
        approximately $94.3 million in acquired supplies and services supporting three
        training efforts on Warfighter Field Operations Customer Support task orders 022


                                                     8

       and 122. This occurred because contracting officials lacked required
       documentation, such as a prenegotiation objective memoranda and price
       negotiation memoranda, essential to providing accountability and transparency in
       the Warfighter Field Operations Customer Support contract files. Additionally,
       Program Executive Office for Simulation, Training, and Instrumentation
       contracting officials did not require the procuring contracting officer to maintain a
       complete history of the contract as a basis for making informed decisions during
       the acquisition process and centralized and integrated program and contract files.
       As a result, Army officials did not adhere to Federal and DoD policies for
       subcontracting related work in a contingency environment and may not have
       received fair and reasonable prices for the Warfighter Field Operations Customer
       Support contract. Furthermore, decentralized contract files could be an indication
       of questionable contract management and oversight of the Warfighter Field
       Operations Customer Support contract. (Report No. D-2011-066)

3. Use of Inappropriate Contract Type
Seven contingency contracting reports identified problems where contracting officials
awarded contracts using inappropriate contract types. We classified the problems related
to contract type into three categories: cost type, Time-and-Materials, and commercial
acquisition. See Appendix B for the seven reports that addressed the contract type
problem.

A wide selection of contract types are available to provide needed flexibility in the large
variety and volume of supplies and services required by the DoD. Contract types vary
according to the degree and timing of the responsibility assumed by the contractor for the
costs of performance, and the incentive offered to the contractor for meeting or exceeding
specified standards. The specific contract types range from firm-fixed-price, in which the
contractor has full responsibility for the performance costs and resulting profit (or loss),
to a Time-and-Materials contract, which is the riskiest type to the Government because
the contractor has less responsibility for the performance costs.

Criteria for the Use of Cost-Type Contracts
Section 2306, title 10, United States Code (U.S.C.) and FAR 16.102 (c), “Policies,”
prohibits the use of a cost-plus-a-percentage-of-cost contract type. The underlying intent
of Congress when prohibiting a
cost-plus-a-percentage-of-cost contract
                                                    The danger in using a cost-plus-a­
was to protect the Government from
                                                    percentage-of-cost contract is the
exploitation when using such a system of
                                                  incentive that the contractor will pay
contracting. The danger in using a cost-
                                                  liberally for cost-reimbursable items
plus-a-percentage-of-cost contract is the
                                                  because a higher cost means a higher
incentive that the contractor will pay
                                                          fee for the contractor.
liberally for cost-reimbursable items
because a higher cost means a higher fee
for the contractor.




                                             9

Example of the Use of Prohibited Cost-Type Contracts
       The Naval Sea Systems Command contracting officer allowed Fincantieri Marine
       Systems North America to collect a profit on task orders issued under
       indefinite-delivery, indefinite-quantity contract N00024-07-D-4002 using the
       prohibited cost-plus-a-percentage-of-cost contract type on cost-reimbursable
       contract line items for engine repair parts. The contracting officer also did not
       establish a set fee amount under individual task orders for the engine repair part
       contract line item, potentially allowing the contractor to maximize its profit by
       purchasing the most expensive parts. In addition, the contracting officer’s failure
       to negotiate prices or definitize requirements in a timely manner for those task
       orders associated with cost reimbursable work led to using the prohibited
       cost-plus-a-percentage-of-cost contract type. To prevent the use of prohibited
       cost-plus-a-percentage-of-cost contract type, the Naval Sea Systems Command
       contracting officials should correctly issue task orders under indefinite-delivery,
       indefinite-quantity contract N00024-07-D-4002, establish a fixed-fee amount
       when issuing task orders for repair parts, and negotiate fair and reasonable prices
       for repair parts on all future orders. (Report No. D-2010-087)

Criteria for the Use of Time-and-Materials Contracts
FAR 16.601, “Time-and-Materials Contracts,” states that a Time-and-Materials contract
may be used only when it is not possible at the time of placing the contract to estimate
accurately the extent or duration of the work or to anticipate costs with any reasonable
degree of confidence.

To issue a Time-and-Materials contract, a contracting officer must prepare a
Determination and Findings to support that no other contract type is suitable.
FAR Subpart 1.7, “Determination and Findings,” states that each Determination and
Findings must set forth enough facts and circumstances to clearly and convincingly
justify the specific determination made in the Determination and Findings.

Example of Time-and-Materials Contracts Used Without
Adequate Support
       The contracting officer at Army Contracting Command-Warren did not
       adequately support the need to use a Time-and-Materials contract for the
       follow-on Joint Logistics Integrator effort, valued at $285.5 million. Specifically,
       the Determination and Findings did not adequately support the use of a
       Time-and-Materials contract to procure services for the Joint Logistics Integrator
       follow-on effort when another contract option was available. This occurred
       because the contracting officer stated that she could not estimate the extent or
       duration of the work needed due to constant changes in mission need and work
       performed, even though 18 months of historical data from the initial Joint
       Logistics Integrator contract could have provided a basis for estimating the work.
       As a result, the contracting officer may have incurred unnecessary costs by using
       the riskiest contract type that provides no incentive to the contractor for cost
       control or labor efficiency. (Report No. D-2011-081)



                                            10

Criteria for the Use of Commercial Acquisition Contracts
FAR Subpart 2.1, “Definitions,” defines commercial items as goods used by the public or
a nongovernmental entity that either has been offered for sale, offered for lease, or
licensed, or have been sold, leased or licensed to the public or a nongovernmental entity.
FAR Part 12, “Acquisition of Commercial Items,” provides guidance for the acquisition
of supplies or services that meet the FAR definition of commercial items.
The acquisition of commercial items does not require certified cost or pricing data to be
obtained by the contracting officer.

Example of Commercial Acquisition Contracts Used for Military
Unique Items
       Army contracting and program officials inappropriately managed the
       Interrogation Arm as a commercial item when the Interrogation Arm was
       developed uniquely for military purposes. This occurred because program
       officials preferred to use a specific contractor, and contracting officials did not
       perform due diligence in their
       determination that the Interrogation            This occurred because program
       Arm was a commercial item. As a                officials preferred to use a specific
       result, the Army lost the benefits of         contractor, and contracting officials
       competition and may not have                    did not perform due diligence in
       received the best value in its contracts           their determination that the
       to meet the needs of the warfighter                  Interrogation Arm was a
       and protect the interest of the DoD.                     commercial item.
       (Report No. D-2011-105)

4. Source Selection Without Full and Open Competition
Six contingency contracting reports identified source selection problems. Specifically,
contracting officials did not provide full and open competition during source selection.
See Appendix B for the six reports that addressed the source selection problem.

Contracting officers must provide for full and open competition when soliciting offers
and awarding Government contracts, unless exceptions apply. The objective of source
selection is to select the proposal that represents the best value to the Government.
Proposal evaluation is an assessment of the offeror’s proposal and ability to perform the
prospective contract successfully. The contracting officer must award contracts based on
evaluation factors that are tailored to the acquisition. The contracting officer must
evaluate price or cost in every source selection, as well as, quality of the product or
service. The evaluation must be addressed through consideration of non-cost evaluation
factors, such as past performance, compliance with solicitation requirements, technical
excellence, personnel qualifications, and prior experience. The contracting officer must
document strengths, deficiencies, significant weaknesses, and risks supporting proposal
evaluation in the contract file. Furthermore, the contracting officer must avoid conflicts
of interest, or the appearance thereof, when conducting source selection.




                                             11

Criteria for Source Selection
FAR Subpart 15.3, “Source Selection,” states that the source selection authority must
ensure consistency among the solicitation requirements, notices to offerors, proposal
preparation instructions, evaluation factors and subfactors, solicitation provisions or
contract clauses, and data requirements.

FAR 15.403-1(c)1(i), “Prohibition on Obtaining Cost or Pricing Data,” states that
contract price is based on adequate price competition if two or more responsible offerors,
competing independently, submit priced offers that satisfy the Government’s expressed
requirement, and if:

       •	 award will be made to the offeror whose proposal represents the best value where
          price is a substantial factor in source selection; and
       •	 there is no finding that the price of the otherwise successful offeror is

          unreasonable.


FAR Subpart 9.1, “Responsible Prospective Contractors,” states the award of a contract
to a supplier based on lowest evaluated price alone can be false economy 2 if there is
subsequent default, late deliveries, or other unsatisfactory performance resulting in
additional contractual or administrative costs.

Example of Inappropriate Source Selection
           The Fleet and Industrial Supply Center, Sigonella Detachments Bahrain and
           Dubai contracting officers did not properly compete nine contracts, valued at
                                                            $24.3 million. Specifically, the
                 Specifically, the Bahrain and Dubai        Bahrain and Dubai contracting
                   contracting officers incorrectly         officers incorrectly eliminated a
                    eliminated a contractor from            contractor from competition in six
              competition in six contracts and did not      contracts and did not provide for
                provide for full and open competition       full and open competition when
               when awarding three other contracts.         awarding three other contracts.
                                                            This occurred because the
                                                            contracting officers incorrectly
           used justification and approvals and improperly limited competition to Master
           Agreement for Repair and Alteration of Vessels holders. As a result, the
           contracting officer did not properly execute the competition for the nine contracts
           in accordance with FAR requirements and may have lost the benefits of
           competitive pricing. (Report No. D-2011-043)




2
    False economy is an apparent financial saving that in fact leads to greater expenditure.


                                                        12

5. Contract Price Reasonableness Was Not Adequately
Determined
Ten contingency contracting reports identified contract pricing problems. Specifically,
contracting officials did not perform adequate price reasonableness determinations. See
Appendix B for the 10 reports that addressed the contract price reasonableness problem.

Contracting officers must purchase supplies and services at fair and reasonable prices and
are responsible for evaluating the reasonableness of the offered prices. Contracting
officers should determine the level of detailed analysis needed based on the complexity
and circumstances of each acquisition, and may require the advice and assistance of other
experts to ensure that they perform appropriate analysis. When the contract does not
require cost or pricing data, the contracting officer must perform price analysis.
The Government may use a variety of price analysis techniques to ensure fair and
reasonable pricing, including:

   •   comparison of proposed price to prices found reasonable on previous purchases,
   •   comparison of proposed price to independent Government cost estimates, and
   •   analysis of pricing information provided by the offeror.

When the contract requires cost or pricing data, contracting officers should use cost
analysis to evaluate the reasonableness of individual cost elements and should use price
analysis to verify that the overall price is fair and reasonable.

Criteria for Obtaining Fair and Reasonable Prices
FAR Subpart 15.4, “Contract Pricing,” states that the objective of proposal analysis is to
ensure that the final agreed-upon price is fair and reasonable. The contracting officer
may use various price and cost analysis procedures to ensure that the Government
receives a fair and reasonable price.

Example of Contract Price Reasonableness Not Adequately
Determined
       Aviation and Missile Life Cycle Management Command officials did not
       effectively negotiate fair and reasonable prices for noncompetitive spare parts
       procured on the Corpus Christi Army Depot/Boeing contract. These pricing
       problems occurred because neither the Army nor Boeing officials performed
       adequate cost or price analyses to establish the reasonableness of the proposed
       subcontract prices that were used to support negotiated prices. Boeing officials
       routinely proposed, and Aviation and Missile Life Cycle Management Command
       officials accepted, egregiously deficient cost or pricing data based on
       unrealistically low quantities that had no relationship to the quantities required or
       the actual price Boeing negotiated with its subcontractors. As a result, we
       calculated that Boeing charged the Army about $13 million (131.5 percent) more
       than the fair and reasonable prices for the 18 parts. Costs for six parts valued at
       $11.3 million were in line with negotiated prices. During the audit, Boeing



                                            13

       provided the Army a credit of $324,616 for one of the incorrectly priced parts.
       (Report No. D-2011-061)

6. Inadequate Oversight and Surveillance
Twenty-four contingency contracting reports identified oversight and surveillance
problems. Specifically, DoD officials did not provide adequate oversight and
surveillance to make sure supplies and services conform with the contract requirements.
We classified the problems in oversight and surveillance into seven categories:
(1) contracting officer, (2) contracting officer’s representative (COR), (3) Defense
Contract Management Agency (DCMA), (4) written procedures, (5) insufficient staff,
(6) training and certification, and (7) program office. See Appendix B for the 24 reports
that addressed the oversight and surveillance problem.

Contract oversight and surveillance are covered under contract administration functions.
                                       Oversight and surveillance is an ongoing process
   Oversight and surveillance is       to make sure that contractors are providing
    an ongoing process to make         supplies or services on time and in conformance
      sure that contractors are        with quality requirements. Effective oversight and
   providing supplies or services      surveillance helps identify contractors that may
    on time and in conformance         have performance problems so that corrective
     with quality requirements.        actions can be taken before actual performance is
                                       affected.

In general, contracting officers are responsible for performing or delegating oversight and
surveillance, and ensuring that there is an effective process for measuring the contractor’s
performance that includes clearly defined levels of contractor surveillance. Contracting
officers are also responsible for incorporating technical and product quality requirements
(such as testing and inspection) from the responsible activity into the contracts. A fully
developed and appropriately structured contract surveillance system is crucial to verify
that the contractor is:

   •   performing on schedule,
   •   staying current in its understanding of the requirements, and
   •   applying adequate skills and resources to the contractual task.

Further, sufficient personnel should be in place and trained in order to have adequate
contract oversight and surveillance. Contracting officers may delegate contract
administration or obtain specialized support
services from other defense agencies, such as         The CORs have no authority to
DCMA. Additionally, contracting officers                 make any commitments or
can delegate certain contract administration        changes that affect price, quality,
functions to administrative contracting             quantity, delivery, or other terms
officers and can appoint CORs. The CORs               and conditions of the contract.
perform technical monitoring, inspections,
and acceptance of contract deliverables and make sure that the contract and program
offices are fully aware of the contractor’s performance. The CORs have no authority to


                                            14

make any commitments or changes that affect price, quality, quantity, delivery, or other
terms and conditions of the contract.

In addition, the contracting officer should make sure that quality assurance surveillance
plans (QASPs) are prepared in conjunction with the statement of work. The QASPs
should specify all work requiring surveillance and the method of surveillance.

Criteria for Contracting Officer’s Responsibilities
FAR 1.602-2, “Responsibilities,” states that contracting officers are responsible for
ensuring performance of all necessary actions for effective contracting and ensuring
compliance with the terms of the contract, and safeguarding the interests of the
United States in its contractual relationships.

FAR 37.604, “Quality Assurance Surveillance Plans,” states the Government may either
prepare the QASP or require the offerors to submit a proposed QASP for the
Government’s consideration.

FAR 46.103, “Contracting Office Responsibilities,” states that the contracting office is
responsible for receiving specifications from the activity responsible for the technical
requirements for inspecting, testing, and performing other contract quality requirements
to ensure the integrity of supplies or services.

FAR Subpart 46.4, “Government Contract Quality Assurance,” states QASPs should be
prepared in conjunction with the preparation of the statement of work. The plans should
specify all work requiring surveillance and the method of surveillance.

Example of When a Contracting Officer Did Not Develop a QASP
       The Naval Sea Systems Command contracting officer did not provide sufficient
       surveillance and acceptance for six task orders for engineering services performed
       in Bahrain. Specifically, the contracting officer failed to develop a QASP for the
       overall indefinite-delivery, indefinite-quantity contract or the task orders issued
       under it, designate an onsite COR to oversee contractor work, and establish lines
       of communication and expectations for surveillance and acceptance for Navy
       representatives on site. This occurred because the contracting officer was
       unaware of his responsibilities to provide surveillance for the task orders.
       In addition, the contracting officer relied on the COR, located in the
       United States, to make decisions for the overall indefinite-delivery,
       indefinite-quantity contract and task orders that should have been made by the
       contracting officer. As a result, there is no assurance that the Navy received what
       they paid for. (Report No. D-2010-087)

Criteria for Assigning Contracting Officer’s Representatives
FAR 1.602, “Contracting Officer’s Representative,” states that a COR assists in the
technical monitoring or administration of a contract. Additionally, according to
DFARS Subpart 201.6, “Career Development, Contracting Authority, and
Responsibilities,” September 20, 2011, a COR must be a Government employee,


                                            15

qualified by training and experience commensurate with the responsibilities delegated in
accordance with DoD or agency guidelines.

Further, the Office of Management and Budget memorandum, “Revisions to the Federal
Acquisition Certification for Contracting Officer’s Representatives,” September 6, 2011,
states that CORs should be appropriately trained and developed. In addition, they must
maintain their contracting skills and knowledge through continuous learning.
DFARS 201.602-2, “Responsibilities,” also states that COR responsibilities must be in
writing and that the responsibilities cannot be redelegated. For that reason, the
contracting officer is expected to appoint a properly trained COR.

Example of Contracting Officer’s Representatives Not Properly
Appointed
       Implementation of Defense Federal Acquisition Regulation Class Deviation
       changes, allowing foreign nationals to act as CORs for Afghanistan Security
       Force Fund contracts/projects, was problematic. This is because the Joint Theater
       Support Command, U.S. Central Command, has not yet issued guidance to
       implement these changes, addressing areas such as training, language barriers,
       and liability. Without additional guidance to implement the Class Deviation, the
       ability to provide effective oversight by holding the responsible foreign nationals
       accountable for managing and documenting contractor performance will be
       problematic and difficult to enforce. This could increase the risk that the
       contractor will not meet the terms and conditions of the contract, and could result
       in fraud, waste, and abuse. (Report No. DODIG-2012-028)

       Figure 3 shows a U.S. Army Sergeant overseeing a foreign national COR at Camp
       Phoenix in Kabul, Afghanistan.

                                    Figure 3. COR Oversight




                Source: U.S. Defense Imagery Web site.




                                                         16

Criteria for Using DCMA
DCMA’s mission is to provide contract administration services to the DoD to make sure
quality products and services are delivered to the warfighter; on time and at projected
cost. According to FAR 42.201, “Contract Administration Responsibilities,” DCMA
may be delegated as a contract administration office. FAR 42.302, “Contract
Administration Function,” lists more than 70 functions for contract administration. These
functions include oversight and surveillance of contractor performance to ensure that the
Government receives supplies or service on time and meeting quality requirements.

FAR 46.104, “Contract Administration Office Responsibilities,” requires DCMA to, but
not limited to:

   •	 develop and apply efficient procedures for performing Government contract
      quality assurance actions under the contract in accordance with the written
      direction of the contracting office;
   •	 perform all actions necessary to verify whether the supplies or services conform
      to contract quality requirements; and
   •	 maintain, as part of the performance records of the contract, suitable records
      reflecting (1) the nature of Government contract quality assurance actions,
      including, when appropriate, the number of observations made and the number
      and type of defects; and (2) decision regarding the acceptability of the products,
      the processes, and the requirements as well as action correcting defects.

DoD Directive 5105.64, “Defense Contract Management Agency,” November 21, 2003,
states that the DCMA mission is to provide contract administration services for the DoD,
other authorized Federal Agencies, foreign governments, international organizations, and
others as authorized.

Example of DCMA Performing Inadequate Quality Assurance
Oversight
       The DCMA Orlando sample selection process did not result in a proper
       statistically representative sample for the lot acceptance testing. In addition,
       quality assurance representatives did not always document or retain the records
       needed to substantiate that they had performed quality inspections of the vest
       components. This occurred because the quality assurance representatives
       incorrectly believed that pointing and grabbing components from different stacks
       was random and provided every component an equal chance for selection.
       In addition, DCMA Orlando officials incorrectly believed that the quality
       assurance representatives were not required to sign the DD Form 1222, “Request
       For and Results of Tests.” Further, the records were either destroyed by
       Hurricane Wilma in 2005 or were maintained for only 2 years. The impact of
       using a sampling methodology that does not result in a statistically representative
       sample is that the lot acceptance test results cannot be relied upon to determine
       whether an entire lot meets the contract requirements. Additionally, the quality
       assurance representative’s signature on the DD Form 1222 is needed to maintain



                                            17

       accountability and the integrity of the samples selected for the lot acceptance
       testing. Finally, quality assurance representatives need to retain inspection
       records to fully document that they completed the inspection process prior to
       accepting the items. (Report No. D-2011-030)

Criteria for Maintaining Written Procedures
FAR Subpart 46.4, “Government Contract Quality Assurance,” states that QASPs
should be prepared in conjunction with the preparation of the statement of work. The
plans should specify all work requiring surveillance and the method of surveillance.

Example of Lacking Written Procedures
       Marine Corps Systems Command contracting officials did not provide adequate
       Government oversight of field service representatives (FSRs) and instructors as
       required by the FAR and DoD
       regulations. This occurred             As a result, MRAP program officials
       because the contracting                procured $815.4 million in FSR and
       officer used the Mine                  instructor services without a written
       Resistant Ambush Protected           quality assurance process to ensure that
       (MRAP) vehicle production            the services provided were performed in
       contracts, which did not             accordance with contract requirements.
       contain the necessary controls
       for providing Government
       oversight, such as QASPs or the designation of contracting officer’s
       representatives, when acquiring these services. The contracting officials also
       relied on MRAP program officials to provide the oversight of the FSRs and
       Instructors without a written designation. As a result, MRAP program officials
       procured $815.4 million in FSR and instructor services without a written quality
       assurance process to ensure that the services provided were performed in
       accordance with contract requirements. Instead, the MRAP program officials
       relied on the contractors themselves or complaints from individual units to
       monitor the FSRs. (Report No. D-2010-068)

       Figure 4 on page 19 shows an FSR helping a U.S. soldier install a thermal
       imaging screen on an MRAP vehicle during training at Joint Base Balad, Iraq.




                                            18

                          Figure 4. FSR With MRAP Vehicle




                              Source: U.S. Defense Imagery Web site.




Criteria for Assigning Sufficient Staff
DoD Instruction 3020.41, “Operational Contract Support,” December 20, 2011, requires
DCMA to plan for and perform contingency contract administration services in support
of the Chairman of the Joint Chiefs of Staff Combatant Commanders in the planning and
execution of military operations, consistent with DCMA’s established responsibilities and
functions. To fulfill DCMA’s mission, the Director of DCMA must ensure sufficient
staff with appropriate skills is assigned to provide pertinent contract administration
functions, including contract oversight and surveillance.

Deputy Secretary of Defense Memorandum, “Monitoring Contract Performance in
Contracts for Services,” August 22, 2008, requires the contracting officer to nominate
and train CORs prior to contract award. Further, the Memorandum states that, when
appropriate, the contracting officer should nominate CORs as part of the purchase
request. Doing so allows the COR to provide subject matter expertise. It also ensures
that he or she is familiar with requirements, specific terms, and conditions of the resultant
contract, as well as, the functions delegated.

The Director of Defense Procurement and Acquisition Policy states, “the COR serves as
the eyes and ears of the contracting officer to make sure the Government receives
high-quality supplies and services on time, within the agreed-upon price, and that the
supplies and services meet all contract requirements.”

Example of Insufficient Staff
       DoD did not have all personnel in place to effectively manage or oversee a DoD
       contract for training and mentoring Afghan Border Police. This occurred because
       DoD did not establish the Training Program Security Office until
       December 1, 2010, 19 days before the contract was awarded. In addition,


                                                 19

          North Atlantic Treaty Organization Training Mission-Afghanistan/Combined
          Security Transition Command-Afghanistan and International Security Assistance
          Force Joint Command officials lacked a formalized agreement establishing a
          cooperative relationship and communication process between the commands for
          managing the CORs and providing consistent oversight of contractor personnel.
          Without adequate staffing and command agreements, DoD will be unable to
          adequately monitor whether the contractor is performing its contractual
          obligations and achieving the goals of the Ministry of Interior/Afghan National
          Police training program. (Report No. D-2011-095)

Criteria for Contractor Training and Certification
DoD Instruction 3020.41, “Operational Contract Support,” December 20, 2011, requires
that a deployment center be designated in the contract for contractors to complete
required training. Further, the Instruction requires contracting officers or their
representative to verify whether contractors complete required training before
deployment.

Example of Contractor Training and Certification Not Completed
          The Army Deputy Chief of Staff, G-3/5/7, and Air Force contracting officials did
          not provide adequate oversight of the contractor deployment training for sexual
          assault prevention and response in support of Operation Enduring Freedom and
          Operation Iraqi Freedom areas of operation. The contractor deployment training
          for sexual assault prevention and response lacked adequate oversight because the
          Army Deputy Chief of Staff, G-3/5/7, inappropriately approved the Kellogg,
          Brown, and Root Services, Inc. 3 (KBR) Continental U.S. Replacement Center
          (CRC) and Fluor Corporation (Fluor) CRC operations. Specifically, the Deputy
          Chief of Staff determined that the KBR and Fluor pre-deployment training met
          Government standards, despite the contractors’ sexual assault awareness and
          reporting training not meeting the minimum U.S. Central Command
          theater-specific individual requirement training offered to DoD personnel at the
          Army CRC, as required by DoD Instruction 3020.41. Additionally, the Air Force
          contracting officers allowed contractor employees to process through
          Tyndall Air Force Base or other sites determined by the contractor without
          ensuring that personnel completed sexual assault prevention and response
          training. As a result, U.S. contractor employees deployed in-theater will continue
          to be at risk of becoming either victims of or witnesses to sexual assault without
          effective training on sexual assault prevention techniques and reporting
          procedures. (Report No. D-2010-052)

          Figure 5 on page 21 shows the DoD sexual assault training poster.




3
    Kellogg, Brown, and Root Services, Inc. is known as KBR, Inc.


                                                    20

                        Figure 5. Sexual Assault Training Prevention




                      Source: U.S. Defense Imagery Web site.



Criteria for Program Office
FAR 9.307, “Government Administration Procedures,” requires the activity (for example,
program office) responsible for first article testing or evaluation, to inform the
contracting officer whether it approves, conditionally approves, or disapproves the
first article.

FAR 46.103, “Contracting Office Responsibilities,” requires the activity (for example,
program office) to provide technical requirements, product quality requirements, and
testing and inspection to the contracting office for incorporation in the contracts.

Example of Program Office Not Consistently Enforcing Testing
Requirements
       The Army Program Manager Soldier Equipment (PM SEQ) did not consistently
       enforce the requirements for testing the body armor ballistic inserts.
       PM SEQ approved two designs that did not have valid V50 tests. (V50 tests
       determine the velocity at which a complete or partial penetration of the armor is
       equally likely to occur.) PM SEQ did not always use the correct size ballistic
       insert for the First Article Tests. PM SEQ did not require a consistent
       methodology for measuring and recording velocity for all seven contracts.
       PM SEQ did not require weathered and altitude tests of the First Article Test on
       six of seven contracts. PM SEQ did not require adherence to humidity and
       temperature requirements on 655 First Article Tests and Lot Acceptance Tests for
       the seven contracts. PM SEQ did not prepare or maintain documentation on two


                                                   21

       of the seven contracts to support acceptance of one First Article Test and one Lot
       Acceptance Test. In addition, PM SEQ did not document changes to test
       procedures. This occurred because PM SEQ did not provide adequate oversight
       of Interceptor Body Armor contracts. As a result, the Army lacks assurance that
       5.1 million ballistic inserts acquired through the seven contracts provide
       appropriate protection. (Report No. D-2011-088)

       Figure 5 shows a U.S. Army Specialist instructing a civilian how to wear
       body armor.

                                    Figure 5. Body Armor




                      Source: U.S. Defense Imagery Web site.



7. Contractor Personnel Performed Prohibited
Functions
Seven contingency contracting reports identified contractor personnel performing
prohibited functions. Specifically, DoD officials did not implement appropriate measures
to prevent contractors performing functions that were inherently governmental functions,
may pose organizational conflicts of interest, and might be personal services. See
Appendix B for the seven reports that addressed contractor personnel performing
prohibited functions.

As previously stated, DoD relies on contractors to deliver a large range of products and
services to support operations in Iraq and Afghanistan. This created problems with
respect to the roles and relationships between Government employees and contractor
employees. Federal law prohibits the Government from contracting for functions that are
inherently governmental. Furthermore,
the Government requires the                    Federal law prohibits the Government
contracting officer to be aware of             from contracting for functions that are
potential conflicts of interest problems             inherently governmental.
during the procurement process and


                                                   22

prohibit the award of personal service contracts unless specifically authorized by statute.

Criteria for Performing Inherently Governmental Functions
FAR Subpart 2.1, “Definitions,” defines an inherently governmental function as a
function that is so intimately related to the public interest as to mandate performance by
Government employees. These functions include activities that require either discretion
in applying Government authority or judgment in making decisions for the Government.

FAR 7.503, “Inherently Governmental Functions Policy,” provides examples of
inherently governmental functions including:

   •	 determining what supplies or services are required by the Government;
   •	 approving any contractual documents to include documents defining

      requirements, incentive plans, and evaluation criteria;

   •	 administering contracts, which includes ordering changes in contract performance
      or contract quantities, taking action based on evaluations of contractor
      performance, and accepting or rejecting contractor products or service;
   •	 determining whether contract costs are allowable, allocable, and reasonable; and
   •	 directing and controlling Federal employees.

FAR 37.114, “Special Acquisition Requirements,” states that contractors working in
situations where their contractor status is not obvious to third parties are required to
identify themselves as contractors. This avoids creating an impression that they are
Government officials, unless, in the judgment of the agency, no harm can come from
failing to identify themselves as contractors. Agencies must ensure that all contractor
personnel identify themselves while attending meetings, answering Government
telephones, and working in other situations where their contractor status is not obvious.

Example of Contractors Performing Inherently Governmental
Functions
       Defense Logistics Agency Energy contracting officers inappropriately used KBR,
       the Logistics Civil Augmentation Program (LOGCAP) contractor, to accept about
       $859.8 million of fuel at Defense Fuel Support Points at Al Asad, Al Taqaddum,
       and Victory Base Complex in Iraq. This occurred because the Defense Logistics
       Agency Energy contracting officer did not assign “responsibility for acceptance”
       to either a COR, a cognizant contract administration office, or to another agency;
       adhere to contract terms that require the use of a DD Form 250, “Material
       Inspection Receiving Report,” to accept fuel by Government representatives; and
       negotiate a memorandum of agreement with the Army Sustainment Command for
       the Government acceptance of the fuel that International Oil Trading Company
       delivered to the Defense Logistics Agency Energy fuel support points being
       operated by KBR under the LOGCAP contract where the Army thought the fuel
       supplied by International Oil Trading Company was Government property.




                                            23

       As a result, KBR was allowed to accept fuel under the LOGCAP contract, an
       inherently governmental function. (Report No. D-2011-049)

       Figure 6 shows Iraqi fuel trucks arriving at an oil refinery in Beiji, Iraq.

                                 Figure 6. Iraqi Fuel Trucks




                    Source: U.S. Defense Imagery Website



Criteria for Organizational Conflicts of Interest
FAR Subpart 2.1, “Definitions,” considers a person to have an organizational conflict of
interest when:

   •	 he or she is unable or potentially unable to render impartial assistance or advice to
      the Government,
   •	 his or her objectivity in performing the contract work is or might be otherwise
      impaired, or
   •	 he or she has an unfair competitive advantage.

FAR 9.505, “General Rules,” states that the contracting officer should examine each
individual contracting situation on the basis of its particular facts and the nature of the
proposed contract. The contracting officer should exercise common sense, good
judgment, and sound discretion in both the decision on whether a significant potential
conflict exists and, if it does, the development of an appropriate means for resolving it.
According to the FAR, the two underlying principles are preventing:

   •	 the existence of conflicting roles that might bias a contractor’s judgment; and
   •	 unfair competitive advantage. An unfair competitive advantage exists when a
      contractor competing for award of any Federal contract possesses proprietary
      information that was obtained from a Government official without proper
      authorization or source selection information that is relevant to the contract but is
      not available to all competitors, and such information would assist that contractor
      in obtaining the contract.


                                                    24

Example of Organizational Conflicts of Interest
       The procuring contracting officer did not address the potential conflicts of interest
       or the LOGCAP support contractor’s inappropriate access to other contractors’
       proprietary information while supporting the non-LOGCAP contracts. This
       occurred because the procuring contracting officer did not comply with
       section 2383, title 10, U.S.C. (2010) requirements to preclude organizational
       conflicts of interest. The LOGCAP Deputy Program Director in Kuwait did not
       inform the procuring contracting officer of an organizational conflict of interest
       that the non-LOGCAP work created between the support contractor and a
       subcontractor. As a result, Rock Island Contracting Center officials gave the
       support contractor a potential competitive advantage on the work for which it was
       developing requirements, violated the FAR and potentially violated the Trade
       Secrets Act, section 1905, title 18, U.S.C (2010) by providing the support
       contractor with other contractors’ proprietary information, and created the
       potential for additional problems after the Army informed non-LOGCAP
       contractors that their proprietary data was provided to the support contractor
       without their permission or contractual protections. (Report No. D-2011-032)

Criteria for Personal Services
FAR 37.104, “Personal Services Contracts,” identifies a personal services contract by the
employer-employee relationship between the Government and the contractor’s personnel.
The Government is normally required to obtain its employees by direct hire under
competitive appointment or other procedures required by the civil service laws.
Obtaining personal services by contract, rather than by direct hire, circumvents those
laws unless Congress has specifically authorized acquisition of the services by contract.

In addition, when assessing whether a proposed contract is personal in nature, the FAR
provides the following descriptive elements as potential indicators of personal services
contracts:

   •	 performance onsite;
   •	 principal tools and equipment furnished by the Government;
   •	 services are applied directly to the integral effort of agencies or an organizational
      subpart in furtherance of assigned function or mission;
   •	 comparable services, meeting comparable needs, are performed in the same or
      similar agencies using civil service personnel;
   •	 the need for the type of service provided can reasonably be expected to last
      beyond 1 year; and
   •	 inherent nature of the service, or manner in which provided, reasonably requires
      direct or indirect Government supervision of contractor employees.

Example of Contractors Performing Personal Services
       Both Air Force and Communications and Electronics Command contracting
       officials permitted contractors to perform personal services. Specifically, officials
       permitted contractors to perform personal services by allowing contracted


                                            25

       services to exceed a period of 1 year; all contractor performance to be completed
       on site; principal tools, space, and equipment to be provided by the Government;
       and contractor employees to perform services under working conditions that were
       indistinguishable from Government personnel. These conditions occurred
       because Air Force and Communications and Electronics Command contracting
       offices did not comply with the FAR and lacked policies and procedures to make
       sure that contracting officers correctly administer task orders and provided
       adequate contract oversight to ensure that contractors were not providing personal
       services. As a result, Aeronautical Systems Center and Communications and
       Electronics Command contracting officers did not protect the best interest of the
       Government on $32.7 million in advisory and assistance services task orders
       supporting the combat search and rescue mission and did not determine whether
       Government employees could have performed these functions more cost
       effectively. (Report No. D-2010-054)

8. Property Accountability Not Properly Maintained
Eight contingency contracting reports identified property accountability problems.
Specifically, DoD officials did not provide appropriate visibility over Government
property. See Appendix B for the eight reports that addressed the property
accountability problems.

The Government relies on and requires contractors to provide effective and efficient
stewardship of Government property in their custody. The contracting officer is
responsible for oversight of stewardship, but, normally delegates the responsibility to a
contract administration office. When responsibility is delegated to DCMA, DCMA
assigns a property administrator to review the contract to determine whether property
administration is required and to ensure contracts contain appropriate clauses pertaining
to furnished or acquired property. For contingency contracts, the property administrator
should advise buying commands to coordinate their requests for property administration
with U.S. Central Command Contracting Command. The property administrator should
be alert to unique in-theater contractual and technical requirements, period of
performance dates, contracts with special terms and conditions, and inappropriate
instances of furnished or acquired property.

Criteria for Maintaining Property Accountability
DoD Instruction 5000.64, “Accountability and Management of DoD Equipment and
Other Accountable Property,” May 19, 2011, requires DoD Components to maintain
accountability for property, including Government property furnished to contractors.
Accountable property records must include the current status, location, and condition of
the property until the authorized disposition of the property. An accountable property
system of record should include:

   •   name, part number, and description;
   •   accountable and custodial organization;
   •   quantity and status of the property;
   •   unique item identifier;


                                            26

   •   location of property; and
   •   current condition.

In addition, DoD Instruction 5000.64 requires DoD Components to maintain accountable
property records to provide a complete trail of all transactions suitable for audit. Those
records will be the authoritative source for validating the existence and completeness of
an asset. Furthermore, DoD Components should establish and maintain records and
accountability for property of any value furnished to contractors as Government
furnished property.

Example of Property Accountability Not Properly Maintained
       International Security Assistance Force does not have a reliable system to
       ensure oversight of U.S. supplied equipment and supplies, including
       weapons. This occurred primarily because the Ministry of Interior does not
       have a viable property accountability system established across the Afghan
       National Police. International Security Assistance Force oversight of this
       system has been insufficient to know whether it is achieving its purpose or
       not. Additionally, the mentoring/training of Afghan National Police
       counterparts at all levels of the logistical system on effective accountability
       and control measures has been insufficient. Moreover, North Atlantic
                                                     Treaty Organization Training
           International Security Assistance         Mission-Afghanistan/Combined
            Force does not have a reliable           Security Transition
             system to ensure oversight of           Command-Afghanistan and
             U.S. supplied equipment and             International Security Assistance
             supplies, including weapons.            Force only have mentors/trainers
                                                     embedded/partnered with
       97 of the 365 Afghan National Police districts who can assist/teach/enforce
       property accountability. This has resulted in a loss of visibility over a
       significant number of U.S. supplied weapons, vehicles, and other supplies
       and equipment. (Report No. SPO-2011-003)

9. Financial Management Not Adequate
Fourteen contingency contracting reports identified financial management problems.
Specifically, DoD officials did not verify whether contractor invoices contained
appropriate charges, manage funds in accordance with laws and regulations, and prevent
potential violations of the Antideficiency Act. The Antideficiency Act is legislation
enacted to prevent incurring obligations or making expenditures in excess of the amounts
available in appropriations or funds. We classified the problems related to financial
management into three categories: billing and payments, potential Antideficiency Act
violations, and funds/obligations. See Appendix B for the 14 reports that addressed
financial management problems.

DoD officials are responsible for ensuring that DoD organizations maintain control of
payments made to contractors. Further, FAR 31.201-1 states that expenses billed to the



                                            27

Government are limited to costs that are allowable, allocable, and reasonable.
Moreover, the Government should only make payments that directly correlate to a
contractual document, contractor invoice, and acceptance or receiving report.

In addition, the maintenance of complete, consistent, and accurate contract files and
accounting records is necessary to minimize the number of problem disbursements, and
reduce the potential for Antideficiency Act violations.

Criteria for Billings and Payments
FAR 32.905, “Payment Documentation and Process,” states that a payment will be based
on receipt of a proper invoice and satisfactory contract performance. In addition,
DoD Financial Management Regulation, volume 10, chapter 1, “Financial Control of
Vendor and Contract Payments,” January 2010, states that payment cannot be made
without determining the entitlement to the payment. Further, a receipt of a “proper”
invoice, proof of receipt, and acceptance, as well as the contract terms and conditions
determine entitlement.

Further, the Department of State Foreign Affairs Handbook, volume 14, handbook 2,
“Contracting Officer’s Representative,” states that the COR must maintain a copy of all
invoices and vouchers and a payment register, indicating a balance of funds remaining.
Without these necessary documents, it is impossible to determine whether invoices
approved for payment were allowable, allocable, or reasonable within the contract scope.

Example of Billings and Payments Not Properly Verified
       From February 2007 through February 2011, the Bureau of International
       Narcotics and Law Enforcement Affairs (INL) COR approved DynCorp invoices
       for the Afghan National Police training program, even though the
       invoices included:

           •	 travel costs for $334,400 to attend weekly meetings that were not
              authorized in the contract;
           •	 labor costs for $352,297 related to schedules not allowed per the statement
              of work, not included in the original cost proposal, and not approved by
              the contracting officer;
           •	 labor costs for $449,406 for services that supporting records showed the
              contractor personnel did not provide and exceeded FAR limitations; and
           •	 materials and supplies for $938,454 that the contractor purchased without
              the proper Government purchase approval, proof of Government
              acceptance, or both, as required by the contract, Prompt Payment Act,
              FAR, and applicable Department of State guidance.

       This occurred because the COR and INL invoice review team did not always
       perform a detailed review of invoices before payment and relied on the INL
       reconciliation team to identify overpayments made to the contractor during their
       review of paid invoices years later. Additionally, Department of State officials
       did not consider the FAR requirement for prorating labor costs to be applicable to


                                           28

       the Civilian Police contract (task orders 4305 and 5375), and officials were
       unaware of, or misinterpreted, some contract and FAR requirements for proof of
       Government acceptance.

                                                            As a result, Department of
          As a result, Department of State officials paid   State officials paid the
           the contractor approximately $2.07 million       contractor approximately
           for costs that were either not authorized or     $2.07 million for costs that
                    for services not provided.              were either not authorized or
                                                            for services not provided. If
       INL officials identify and Office of Acquisitions Management officials recover
       those funds, they could be used for valid Afghan National Police training program
       requirements or other DoD requirements. Further, unless the COR and INL
       invoice review team improve the invoice review process prior to payment,
       Department of State will likely continue to approve these types of costs. (Report
       No. D-2011-080)

Criteria for Antideficiency Act
The Antideficiency Act is codified in section 1301, title 31, U.S.C. and other sections.
The purpose of the Antideficiency Act is to enforce the constitutional budgetary powers
of Congress with respect to purpose, time, and amount of expenditures made by the
Federal Government. According to section 1502(a), title 31, U.S.C. appropriations are
available only for the bona fide needs of an appropriation’s period of availability. The
bona fide needs rule states that the balance of an appropriation or fund limited for
obligation to a definite period is available only for payment of expenses properly incurred
during the period of availability and obligated consistent with section 1501, title 31,
U.S.C. However, the appropriation or fund is not available for expenditure for a period
beyond the period unless otherwise authorized by law.

Example of Potential Antideficiency Act Violations
       TACOM Contracting Center officials obligated $23 million for Instructor
       Services that were not a bona fide need for FY 2009. TACOM Contracting
       Center officials did not meet the Bona Fide Needs Rule because they obligated
       FY 2009 Operations and Maintenance funds for a 6-month option period award
       that did not begin until January 2010. Obligating the FY 2009 funds for the
       option work to be performed in FY 2010 resulted in a potential Antideficiency
       Act violation. (Report No. D-2011-036)

Criteria for the Deobligation of Funds
FAR 4.804-5 “Procedures for Closing Out Contract Files,” requires the contract
administration office to initiate administrative closeout of the contract after receiving
evidence of its physical completion. The contract administration office must review the
contract funds and deobligate the excess funds as appropriate.




                                            29

Example of Funds Not Deobligated
       U.S. Forces-Afghanistan personnel did not deobligate funds for closed,
       terminated, or inactive Commander’s Emergency Response Program (CERP)
       projects initiated from FY 2007 through FY 2009. This occurred because
       U.S. Forces-Afghanistan officials did not implement adequate procedures for
       confirming that projects were properly closed out or provide Resource
       Management personnel with the data necessary to reconcile the project status
       information in CERP Checkbook with the status information in Combined
       Information Data Network Exchange. As
       a result, U.S. Forces-Afghanistan had at            U.S. Forces-Afghanistan
       least $16.7 million and potentially up to     personnel did not deobligate funds
       $38.4 million in outstanding unliquidated      for closed, terminated, or inactive
       obligations that could be deobligated and          Commander’s Emergency
       put to better use. In addition, when the          Response Program (CERP)
       CERP project managers and Resource              projects initiated from FY 2007
       Management personnel do not keep                        through FY 2009.
       Combined Information Data Network
       Exchange and CERP Checkbook up-to-date, it places an additional burden on
       incoming personnel, who must research and follow up on open CERP projects to
       determine their status. (Report No. DODIG-2012-023)

What Has Been Done Based on Our Audits
DoD OIG personnel made 311 recommendations in 38 reports to address the
9 contracting problem areas related to contingency operations. As of August 21, 2012,
263 recommendations are closed and 48 remain open. The chart “Number of Closed and
Open Recommendations by Report for Each Contracting Problem Area” on page 31
provides a breakdown of the 311 recommendations by report number.




                                           30

         Number of Closed and Open Recommendations by Report for Each Contracting Problem Area
                                           Contract                                                  Contract          Oversight and             Contractor         Property                 Financial
                      Requirement        Documentation       Contract Type      Source Selection      Pricing           Surveillance             Personnel        Accountability            Management




                         Closed




                                             Closed




                                                                Closed




                                                                                   Closed




                                                                                                      Closed




                                                                                                                             Closed




                                                                                                                                                  Closed




                                                                                                                                                                        Closed




                                                                                                                                                                                                 Closed
                                  Open




                                                      Open




                                                                         Open




                                                                                             Open




                                                                                                                Open




                                                                                                                                          Open




                                                                                                                                                           Open




                                                                                                                                                                                     Open




                                                                                                                                                                                                          Open
Report #s
D-2010-051                                                                                                               7            1
D-2010-052                6        0                                                                                     3            0
D-2010-054                                                                     2          0           3       0          1            0          5         0
D-2010-055                                                                                                                                                                                   2            0
D-2010-064                                                                     4          0           3       0                                                                              5            0
D-2010-066                2        0           1     0                                                                   3            0
D-2010-068                                                                                                               2            0
D-2010-073                                     1     0                                                                                                                                       13           0
D-2010-078                                     1     0                                                                    1           1          1         0
D-2010-081                                                  1        0         1          0           0       1           4           0                                                      1            1
D-2010-085                                                                                                               10           0
D-2010-087                                                  6        0                                2       0           3           0                                                      4            0
D-2010-088                                                                                                                2           0                             3            1
D-2010-091                2        1                                                                                      9           0                             9            0
D-2011-030                                                                                                                5           0
D-2011-032                3        0                                                                                      3           1          6         0
D-2011-036                                                  1        0         2          0                                                                                                  1            3
D-2011-043                                                                     2          1           2       0          4            2                                                      6            0
D-2011-047                                                                                            2       0          3            0                                                      8            0
D-2011-049                                                  1        0                                1       0                                  2         0
D-2011-061                                                                                           12       0          9            0                                                      2            0
D-2011-066                                     3     0                                                                   1            0
D-2011-078                2        0                                                                  2       0          2            0                             1            0
D-2011-080                                                                                                                                                                                   4            9
D-2011-081                                                  1        0                                1                                          7         0
D-2011-088                                                                                                               4             0
D-2011-095                                                                                                               0            13
D-2011-102                                                                                                                                                                                   1            6
D-2011-105                                                  2        0         1          0
D-2011-113                                                                                            1       0          6            0                                                      1            0
DODIG-2012-023                                                                                                                                                                               9            2
DODIG-2012-028            2        0                                                                                     0            1                             0            1
SPO-2011-001                                                                                                             5            0                             1            0
SPO-2011-003                                                                                                             3            0                             2            3
SPO-2011-002              1        0
SPO-2011-007              1        0                                                                                                                                                         1            0
Total                       19        1           6    0      12        0        12           1         29       1           90     19       21       0         16                    5          58        21
Grand Total                          20                6               12                    13                 30                109                21                              21                    79
Note: Reports SPO-2010-002 and SPO-2011-009 included contingency contracting issues, but did not have recommendations.   These two reports are included in the 38
reports we reviewed, but not included in this chart.




                                                                                              31
The following encompasses a brief discussion of the recommendations in the 38 reports.
This discussion includes the number of open and closed recommendations for each of the
9 contracting problem areas as well as an example of corrective actions taken to address
the contracting problem areas.

Requirements
Our reports included 20 recommendations addressing inadequate requirements. Nineteen
recommendations are closed, and one remains open. For example,
DoD OIG Report No. D-2011-078 recommended that the Executive Director, Army
Contracting Command-Rock Island, direct the procuring contracting officers assigned to
the Kuwait Base Operations and Security Support Services, Ammunition Supply Point,
and Supply Support Activity contracts to develop a central repository for the performance
requirements and any updates, and to verify that the requirements are inclusive and
readily available to Government surveillance officials to validate that their reviews
encompass all contract performance requirements. In response, the Army stated that a
contractor developed a SharePoint system that serves as the central repository for
contracts to include performance requirements and all deliverables.

Contract Documentation
Our reports included six recommendations to correct contract documentation. All
recommendations are closed. For example, DoD OIG Report No. D-2011-066
recommended that the Principal Assistant Responsible for Contracting at the Program
Executive Office for Simulation, Training, and Instrumentation, develop and execute
written processes and procedures that require contracting personnel to maintain
centralized and complete contracting files that include detailed program and contract
documentation essential to all phases of the acquisition process. To correct this problem,
the Principal Assistant Responsible for Contracting reviewed policies and operations
procedures to ensure compliance with current regulatory and statutory guidance. The
Program Executive Office for Simulation, Training, and Instrumentation implemented the
automated COR Tracking tool to serve as a single repository for all applicable COR
documentation and also started to incorporate the Army’s Virtual Contracting Enterprise
tool suite to improve the acquisition process.

Contract Type
Our reports included 12 recommendations to address the selection of contract type.
All recommendations are closed. For example, DoD OIG Report No. D-2011-105
recommended that the Executive Director, Army Contracting Command-Aberdeen
Proving Ground, perform a review of the contracting officer’s actions relating to the
determination that the Interrogation Arm was a commercial item. The Army Contracting
Command agreed and commented that they conducted two reviews and determined that
the contracting officers made reasonable determinations that the Interrogation Arm was a
commercial item. However, the documentation supporting the determination was
inadequate and the Army Contracting Command planned to issue supplemental guidance
on commercial item determination policies and procedures.




                                           32

Source Selection
Our reports included 13 recommendations addressing contract source selection. Twelve
recommendations are closed and one recommendation is open. For example, DoD OIG
Report No. D-2010-064 recommended that the Director, Mission and Installation
Contracting Command-Fort Eustis, require contracting officers to provide for full and
open competition for all ship maintenance contracts as required by Federal law and DoD
regulations. In response, Mission and Installation Contracting Command-Fort Eustis
publicized a combined synopsis/solicitation on FedBizOpps for a period of 15 days for all
Kuwaiti vessels requirements. The notification informed all potential offerors that any
proposal received will be considered for award.

Contract Pricing
Our reports included 30 recommendations addressing contract pricing. Twenty-seven
recommendations are closed, and three recommendations are open. For example,
DoD OIG Report No. D-2011-061 recommended that the Director, DCMA, instruct the
Contractor Purchasing System Division Director to identify the purchasing system at
Boeing-Philadelphia as high-risk and schedule a purchasing system review to determine
whether Boeing conducts subcontractor price and cost analyses before prime contract
negotiations and whether quantity discounts are being adequately passed on to the
Government. In response, DCMA identified Boeing Philadelphia’s Purchasing System as
high-risk and scheduled a Contractor Purchasing System Review to address the timing of
subcontractor analysis and whether discounts are passed on to the Government.

Oversight and Surveillance
Our reports included 109 recommendations to improve oversight and surveillance.
Ninety recommendations are closed, and 19 recommendations remain open.
For example, DoD OIG Report No. D-2010-078 recommended that the Director, Air
Force Center for Engineering and the Environment, assign CORs or other Government
Officials to develop QASPs and conduct document appropriate surveillance over the title
II contractors to ensure that work performed on a Time-and-Materials basis is being
performed in accordance with the task order requirements and is invoiced correctly. As a
result, the Air Force Center for Engineering and Environment in-country Officer-in-
Charge was appointed as the in-country COR on all current title II contracts. Although a
QASP is not required per FAR part 37.103, the Air Force Center for Engineering and
Environment has implemented use of a Quality Assurance Oversight monitoring form.
This form is to be completed upon each site visit by an in-country Project Manager or
COR.

Contractor Personnel
Our reports included 21 recommendations addressing the duties and performance of
contractor personnel. All recommendations are closed. For example, DoD OIG
Report No. D-2010-054 recommended that the Commander, U.S. Army Communications
and Electronics Command, develop policies and procedures detailing specific contract
oversight requirements to discourage and prevent Government personnel from tasking
contractors to perform inherently governmental functions and personal services.


                                           33

U.S. Army Communications and Electronics Command recognized the need for further
clarification in the guidance for the COR to ensure that contractors are performing within
the statement of work on contract and no inherently governmental functions and personal
services are performed. U.S. Army Communications and Electronics Command
amended the COR handbook to reemphasize the need for oversight that will prevent the
rendering of services considered to be inherently governmental functions or personal
services in nature.

Property Accountability
Our reports included 21 recommendations to improve property accountability. Sixteen
recommendations are closed, and five remain open. For example, DoD OIG Report No.
D-2010-088 recommended that the Commander, Defense Contract Management Agency
– International, conduct a 100-percent inventory of Logistics Civil Augmentation
Program inventory at South Victory, Warehouse, Liberty, and Alpha West, as well as,
direct the Logistics Civil Augmentation Program contractor at the Baghdad International
Airport Area to establish and implement effective procedures to account for air
conditioner units and ensure those procedures are included in the contractor’s property
control procedures. As a result, a 100% inventory was completed.

Financial Management
Our reports included 79 recommendations addressing financial management. Fifty-eight
recommendations are closed, and 21 recommendations remain open. For example,
DoD OIG Report No. D-2010-081 recommended that the Executive Director, Army
Contracting Command establish a written plan to review invoices for 18 contracts and
task orders; request Defense Contract Audit Agency (DCAA) assistance in reviewing
invoices for allowable, allocable, and reasonable costs; and obtain reimbursements for
incorrect charges. In response, the responsible contracting offices are developing a plan
to review the invoices and solicit assistance from DCAA to review the invoices.

What Needs to Be Done to Improve Contingency
Contracting
Based on the problems that DoD OIG personnel identified in the 38 reports, DoD
officials need to take the following steps to improve the contracting process in current
and future contingency operations. These steps are not all-inclusive in a contingency
contracting environment and should be considered in unison with Federal and DoD
guidance.




                                            34

Requirements
In contingency operations, requirements can change quickly and officials should react to
fluid operations by re-evaluating requirements as necessary. Program personnel must
ensure that clear, complete, well-defined requirements exist for the entire contract. When
conditions do not allow for clearly defined requirements for the entire contract, the
contracting officer should use a contract
structure that allows development of well-        Program personnel must ensure that
defined requirements for segments of                 clear, complete, well-defined
work, such as task orders or basic             requirements exist for the entire contract.
ordering agreements.

Contract Documentation
Complete and detailed documentation is essential to all phases of the contracting process.
The contracting officer should make sure that a complete and well-documented
contracting file, to include the basis of the acquisition and award of the contract,
assignment of contract administration, the performance of contract administration
responsibilities and duties, the basic contract, and all the modifications or task orders,
exists for the life of the contract.

Contract Type
When determining whether the contract should be fixed price or a cost-type, the
contracting officer should consider the procurement history and, if applicable, evaluate
prior work to support the contract type decision. The contracting officer should structure
the contract to allow for fixed price and cost-type line items when appropriate. Contract
type is important to future surveillance considerations. If a contracting officer includes
more cost-type work, then more surveillance assets are required.

Source Selection
The contracting officer must have well-defined and measurable source selection criteria
and well-documented selection decisions that appropriately discuss price and technical
tradeoffs for competitive procurements. For negotiated procurements, the contracting
officer must properly support and document prices.

Contract Pricing
The contracting officer should have robust pre-award pricing support. As a general rule,
DCAA provides pricing support for pre-award proposals for contract cost support and
DCMA provides technical support for labor hours, labor mix, and procurement quantities.
To the extent available, DCAA and DCMA should be brought into the process early and
used throughout the life of the contract. In addition, for cost-type contracts, DCAA
should review the accounting system of the proposed contractors. Contractors must be
able to account for and properly record costs. If DCAA and DCMA are not used, suitable
pricing and technical expertise, or both should be used. Furthermore, the contracting
officer should, in detail, document pricing and technical support decisions.




                                            35

The contracting officer should document all aspects of the negotiation, specifically the
price negotiation memorandum, in detail, to allow an independent party to understand the
negotiated conclusions. The contracting officer must have certified cost or pricing data
for sole-source procurements unless an exception applies. If negotiations include
certified cost or pricing data, the contracting officer should document that he or she relied
on the data. If an exception applies, the contracting officer should obtain other cost or
pricing data to the extent necessary. Unless competitive proposed prices or previous
contract prices are not available, the contracting officer should not use comparison of
independent government cost estimates to proposed price as the primary or only basis for
establishing price reasonableness. Independent Government cost estimates, when used,
should be detailed and well-documented as to the basis for the supporting documentation.
The contracting officer should scrutinize use of prior price history for other contracts and
not rely on prior prices without knowing how those prices were established or the scope
of the other awards relative to the anticipated procurements. As an example, prior prices
on a contract action for $200,000 likely could not be relied on to establish price
reasonableness for a newly proposed contract for $3 million.

Oversight and Surveillance
Program and contracting officials must ensure a well-documented surveillance approach
is in place. They should make sure that QASPs and surveillance logs are measurable and
documented to show the quality and quantity of actual surveillance performed. Because
of the magnitude of surveillance problems found in our audit work, a robust surveillance
system is essential. Program and contracting officials must ensure that sufficient contract
oversight occurs and that oversight personnel are adequately trained.

When evaluating the amount of oversight needed for a contract, the following should be
considered:

   •	   contract type,                                  Program and contracting officials
   •	   products versus services,                           must ensure that sufficient
   •	   criticality of product and service, and         contract oversight occurs and that
   •	   the contractor’s history of contract                 oversight personnel are
        performance.                                           adequately trained.

For example, a cost-type service contract puts minimal responsibility on the contractor
for performance costs and negotiated profit, requiring a much more robust oversight staff.
Contracts that allow for award fee should be well documented with measurable criteria,
and award fee decisions must be well documented. Contract oversight personnel should
perform realistic and measurable reviews and ratings of contractor performance. It is
crucial that contractors do not perform inherently governmental functions such as
oversight and surveillance, especially for cost-type contracts.

Contractor Personnel
The contracting officer should not award personal services contracts. A personal services
contract is a contract that, by its express terms or as administered, makes the contractor
personnel appear to be, in effect, Government employees. In addition, contracting


                                             36

officers should ensure service contracts are not being used for the performance of
inherently governmental functions. Specifically, contracting officers should avoid
awarding contracts that allow contractors to perform functions that are intimately related
to the public interest thereby requiring performance by Government employees. In
addition, contract awards should be avoided if contractors are required to exercise
discretion in applying Government authority or making value judgments for Government
decisions. Furthermore, contracting officers should avoid awarding contracts which put
contractors in situations allowing the performance of organizational conflicts of interest.
Specifically, contractors should not be put in situations that would give them an unfair
competitive advantage or impair their objectivity in performing the contract work.

Property Accountability
The contracting officer should administer or delegate the administration of the terms of
contract provisions that specify the contractor’s obligations to acquire, control, use, care
for, report, and dispose of Government property. The property administrator plans
property management system audits and chooses the appropriate audit type for the
contractor. The Government’s policy is to rely upon contractors to be accountable for
and maintain official records of Government property in their possession. However,
Government officials should periodically review contractor records and contractor
property control systems.

Financial Management
The contracting officer should make sure that appropriate financial management occurs
for the life of the contract to include the type and amount of funds being obligated to the
contract. Maintenance of complete, consistent, and accurate contract files and accounting
records is necessary to reduce the potential for violations of the Antideficiency Act and
minimize the number of problem disbursements. Additionally, the contracting officer
should ensure the COR maintains a copy of all invoices and vouchers and a payment
register, indicating a balance of funds remaining. Without these necessary documents, it
is impossible to determine whether invoices approved for payment by the COR are
allowable, allocable, or reasonably within the contract scope. The contracting officials
should provide certifying officers needed information to verify that vouchers are factually
accurate, including computed costs and allowable charges.

Summary
DoD OIG personnel reported 9 systemic contracting problem areas in 38 reports issued
from April 2, 2010, through March 31, 2012. These reports identified a variety of
problems relating to DoD officials not properly awarding, administering, or managing
contingency contracts in accordance with Federal and DoD policies. In these reports,
DoD OIG personnel issued 311 recommendations to address the 9 systemic problems.
DoD completed corrective actions on 263 recommendations, and the remaining
48 recommendations are open. See Table 1 on page 38 for the number of reports for each
problem area and the associated recommendations and status.




                                             37

               Table 1. Number of Reports and Recommendations by 

                             Contracting Problem Area

        Contracting       Number      Number of Closed Number of Open
       Problem Area      of Reports Recommendations Recommendations
       Requirements           9              19                1
          Contract            5               6                0
       Documentation
       Contract Type          7              12                0
           Source             6              12                1
          Selection
        Contracting          10              29                1
           Pricing
       Oversight and         24              90               19
        Surveillance
         Contractor           7              21                0
         Personnel*
          Property            8              16                5
       Accountability
          Financial          14              58               21
        Management
    * This problem area includes contractor personnel performing prohibited functions.

    Note: The numbers of reports will not add up to 38 because a report can have more than one contracting problem.



The chart “Contingency Contracting Problems Identified by DoD OIG Reports” on
page 39 describes specific contingency contracting problems identified in previous DoD
OIG Reports.




                                                            38

39

Fraudulent Activities in Overseas
Contingency Contracting
As of March 2012, the Defense Criminal Investigative Service (DCIS) had 249 open
investigations pertaining to Overseas Contingency Operations. In addition, from April 2,
2010, through March 31, 2012, DCIS reported that 20 of those cases resulted in pleas,
sentencings, fines, and forfeitures.

DCIS conducts the majority of its investigations with other Federal law enforcement
agencies, such as the Federal Bureau of Investigation, the U.S. Army Criminal
Investigation Command, the Naval Criminal Investigative Service, the U.S. Air Force
Office of Special Investigations, the Special Inspector General for Iraq Reconstruction,
and the Special Inspector General for Afghanistan Reconstruction.

Ongoing Investigations
DCIS classified the 249 ongoing investigations into three predominant investigative
categories pertaining to Overseas Contingency Contracting: Public Corruption,
Procurement Fraud, and Theft and Technology Protection.

   •   Public Corruption is defined as the breach of public trust by elected or appointed
       U.S. Government officials who ask, demand, solicit, seek, accept, receive or agree
       to receive anything of value in return for preferred treatment. Public Corruption
       includes bribery, gratuities, conflicts of interest and kickbacks.

   •	 Procurement Fraud includes, but is not limited to, false claims and statements,
      undelivered products, defective products, and cost/labor mischarging. According
      to the generally accepted government auditing standards, fraud is a type of illegal
      act involving obtaining something of value through willful misrepresentation.
      Whether an act is in fact fraud, is a determination to be made through the judicial
      or other adjudicative systems. Fraud may occur at any point during the
      procurement process.

   •	 Theft and Technology Protection includes illegal theft, diversion or movement of
      strategic technologies and U.S. Munitions List items to proscribed nations,
      criminal enterprises or terrorist organizations and illegal theft or transfer of
      technologies, weapons systems, components and programs, and all forms of high
      technology, information, and capabilities involving Weapons of Mass
      Destruction. In short, Theft and Technology Protection includes theft of funds,
      property, equipment, and supplies, and exports violations (U.S. technology and
      vehicles).




                                            40

Table 2 summarizes the 249 ongoing investigations by investigative category as related to
Overseas Contingency Contracting.


                 Table 2. DCIS Open Investigations as of March 2012
   Predominant Investigative        Number of                 Subject Types
     Category for Overseas           Ongoing
    Contingency Contracting       Investigations
Public Corruption                      109               DoD Contractor; Foreign
-Bribery                                               National; U.S. Government
-Gratuities                                         Civilian; U.S. Military Personnel;
-Conflicts of Interest                               Military or Civilian Dependent;
-Kickbacks                                                 DoD Subcontractor
Procurement Fraud                      110               DoD Contractor; Foreign
-False claims and statements                           National; Military Personnel;
-Undelivered products                                   U.S. Government Civilian
-Defective products                                   Employee; DoD Subcontractor
-Cost/labor mischarging
Theft and Technology Protection         27                DoD Contractor; U.S.
-Theft of funds, property,                          Government Civilian Employee;
equipment, and supplies                               State Government Employee;
-Export violations: U.S.                               Military Personnel; Foreign
Technology and vehicles                                          National
Miscellaneous                            3              U.S. Government Civilian
-Terrorism-Related Acts                              Employee; Civilian Dependent;
                                                       DoD Subcontractor; Foreign
                                                       National Contractor to DoD

In addition, Appendix E provides a description of various fraud indicators at different
phases in the contracting process

Results of Investigations
DCIS provided 20 investigations pertaining to OCO from April 2, 2010, through
March 31, 2012. The 20 investigations resulted in prison sentences, fines, restitution, and
criminal and civil settlement agreements.

To assist theater commanders and contract managers to better identify the warning signs
of fraudulent activities, we organized the investigations according to where the fraud
occurred within the contracting process. As discussed earlier in the report, fraud can
occur at any point in the contracting process, so it is important to know how to recognize
the indicators. Based on the results of the 20 investigations, we identified 3 contracting
process areas where most fraudulent activities occurred.




                                            41

Table 3 is a summary of the selected investigations by contracting process areas affected
by fraudulent activity.

                Table 3. Investigations by Contracting Process Areas
       Contracting Process        Numbers of               Subject Types
     Areas Impacted by the       Investigations
      Fraudulent Activities
     Source Selection                  14               DoD Contractor; U.S.
                                                       Government Employees
                                                     (Military and Civilian); and
                                                          Foreign National
     Oversight and                      5               DoD Contractor; U.S.
     Surveillance                                      Government Employees
                                                     (Military and Civilian); and
                                                          Foreign National
     Financial Management               8               DoD Contractor; U.S.
                                                       Government Employees
                                                     (Military and Civilian); and
                                                          Foreign National
    Note: The number of investigations will not add up to 20 because an investigation can affect more than one contracting area.




Examples of Investigations by Contracting Areas
Source Selection

        Former Officers of New Mexico-Based Defense Contractor Charged In Fraud
        and Money Laundering Schemes Related to Rebuilding Efforts in Iraq
        (3/2/2012) The U.S. Attorney’s Office, DCIS, the Federal Bureau of
        Investigation, the Internal Revenue Service-Criminal Investigations Division, the
        Special Inspector General for Iraq Reconstruction, and the DCAA jointly
        investigated and are currently prosecuting this case. Specifically, the United
        States charged seven defendants [three defense contractor employees (Kasper, B.
        Christiansen, White) and four Foreign Nationals (Snobar, Snobar, Ahmad,
        Aridhi)] for their alleged roles in a fraud and money laundering scheme involving
        defense contracts for wartime rebuilding projects. In addition, the United States
        charged Christiansen’s wife with conspiracy to launder money and substantive
        money laundering offenses.

                    Laguna Construction Company, Inc. (LCC), a minority disadvantaged
                    business wholly owned by the Pueblo of Laguna, a Native American
                    Indian Tribe located in New Mexico. The United States awarded LCC
                    multiple contracts for wartime reconstruction and rebuilding projects in
                    Iraq and Jordan. For LCC to award subcontracts to foreign companies, the


                                                              42

       United States required LCC to generate requests for proposal and solicit
       independent subcontract bids from qualified foreign companies. The
       United States also required foreign companies to independently prepare
       bids and LCC to objectively evaluate and award the subcontracts to the
       lowest qualified bidders. The United States prohibited LCC and its
       personnel from accepting anything of value, whether gifts, bribes or
       kickbacks from the bidders.

       From January 2004 through February 2009, Kasper, Christiansen, and
       White allegedly colluded with the Foreign Nationals to defraud the
       United States of more than $5 million. Specifically, the Foreign Nationals
       allegedly offered kickbacks to Kasper and Christiansen for the award of
       LCC subcontracts in Iraq. Kasper and Christiansen allegedly fraudulently
       eliminated bids submitted by foreign companies that were unwilling to pay
       kickbacks for the award
       of LCC subcontracts, and             From January 2004 through
       awarded the subcontracts        February 2009, Kasper, Christiansen,
       to companies controlled          and White allegedly colluded with the
       by Foreign Nationals.          Foreign Nationals to defraud the United
       When preparing                      States of more than $5 million.
       invoices, the Foreign
       Nationals allegedly overstated the actual costs incurred on LCC
       subcontracts in order to obtain excess funds to pay kickbacks. Kasper and
       Christiansen allegedly approved payment on invoices submitted by the
       Foreign Nationals that falsely overcharged the United States for costs not
       incurred. The Foreign Nationals allegedly paid kickbacks in the form of
       wire transfers of funds and the delivery of property to Kasper,
       Christiansen and White in return for the award of LCC subcontracts in
       Iraq. Further, the indictment alleged that Kasper, White, and Christiansen
       attempted to conceal the nature of the illegal kickbacks by having funds
       wire-transferred into the bank accounts of relatives and companies
       controlled by the defendants; by accepting kickbacks in the form of
       personal property, including automobiles and cash; and by using the
       kickbacks to acquire goods and remodel residential real property.

Retired Army Major Sentenced to 24 Months in Prison for Engaging in Money
Laundering Related to Contracting in Support of Iraq War (12/13/2011) The
Criminal Division Trial Attorneys of the Public Integrity and Fraud Sections and
the Assistant U.S. Attorney for the Western District of Texas, San Antonio
Division prosecuted this case. The Army Criminal Investigation Command, the
DCIS, the Federal Bureau of Investigation, the Internal Revenue Service, the
Special Inspector General for Iraq Reconstruction, and the U.S. Immigration and
Customs Enforcement’s Homeland Security Investigations jointly investigated
this case.




                                   43

       Charles Joseph Bowie was sentenced to 24 months in prison and 3 years
       of supervised release for engaging in monetary transactions in property
       derived from specified unlawful activity. Mr. Bowie was ordered to pay
       $400,000 in restitution. Mr. Bowie, a retired U.S. Army Major, directed a
       Government contractor to pay him money in exchange for the award of a
       bottled water contract in support of Operation Iraqi Freedom. Mr. Bowie
       admitted that he entered into a sham consulting agreement with the
       contractor in an effort to conceal the four $100,000 payments he received
       from the contractor.

Saudi Arabia-Based Tamini Global Company to Pay United States $13 Million
to Resolve Criminal and Civil Allegations of Kickbacks and Illegal Gratuities
(9/16/2011) The U.S. Attorney’s Office and the Justice Department prosecuted
this case. The Internal Revenue Service Criminal Investigation Division, the
DCIS, the U.S. Army Criminal Investigation Command, and the Federal Bureau
of Investigation investigated this case.

       Saudi Arabia-based Tamimi Global Company Ltd (TAFGA) agreed to pay
       the United States $13 million to resolve criminal and civil allegations that
       the company paid kickbacks to a KBR employee and illegal gratuities to a
       former U.S. Army Sergeant, in connection with contracts in support of the
       Army’s operations in Iraq and Kuwait. Under a deferred prosecution
       agreement between TAFGA and the U.S. Attorney’s Office, TAFGA will
       pay the United
       States $5.6 million      Saudi Arabia-based Tamimi Global Company
       and institute a          Ltd (TAFGA) agreed to pay the United States
       strict compliance           $13 million to resolve criminal and civil
       program to ensure       allegations that the company paid kickbacks to
       that the company          a KBR employee and illegal gratuities to a
       and its employees          former U.S. Army Sergeant, in connection
       will abide by the            with contracts in support of the Army’s
       legal and ethical                 operations in Iraq and Kuwait.
       standards required
       for Government
       contracts. If TAFGA meets its obligations under the agreement without
       violation for 18 months, the United States will dismiss the criminal
       charges. As part of the criminal agreement, TAFGA admitted conspiring
       to pay kickbacks to a former KBR subcontract manager in return for
       favorable treatment in the award and performance of a subcontract to
       provide dining services at Camp Arifjan in Kuwait. In a separate civil
       settlement agreement, TAFGA agreed to pay the United States an
       additional $7.4 million to resolve civil allegations that TAFGA paid
       kickbacks in return for favorable treatment in the award and performance
       of the Camp Arifjan subcontract, a subcontract for dining facilities at the
       Baghdad Palace in Iraq, and five smaller subcontracts for dining services
       and other logistical support in Iraq, including temporary personal services



                                    44

            and installation of tent pads and a shower/laundry unit. The United States
            alleged that TAFGA’s conduct violated the False Claims Act and the
            Anti-Kickback Act.

            Figure 8 is an example of dining facilities in Kuwait.

                      Figure 8. A Dining Facility in Kuwait




                   Source: U.S. Defense Imagery Web site.


Oversight and Surveillance

     Army Sergeant Pleads Guilty to Accepting $1.4 Million in Illegal Gratuities
     Related to Military Dining Contracts in Kuwait (4/21/2010) The U.S. Attorney’s
     Office, the DCIS, the Internal Revenue Service-Criminal Investigation, the U.S.
     Army Criminal Investigation Command, and the National Procurement Fraud
     Task Force, jointly prosecuted and investigated this case.

            Ray Scott Chase, a U.S. Army Sergeant, pleaded guilty to accepting
            $1.4 million in illegal gratuity from a private contractor during his
            deployment to Kuwait in 2002 and 2003. During his deployment, he
            served as a COR and a non-commissioned officer in charge of the military
            dining facility at U.S. Central Command at Camp Doha, Kuwait. As a
            part of his official duties, he supervised the food procurement, preparation
            and service operations at Camp Doha and Camp Arifjan. He also
            coordinated orders for certain blanket purchase agreements the U.S. Army
            had with various private contractors to provide supplies and services to
            both of those dining facilities. He admitted that he received about
            $1.4 million from private contractors for official acts he performed and
            was going to perform in 2002 through the end of 2003. After he returned
            to the United States, he structured various financial transactions to avoid
            currency transaction reporting requirements and made false statements
            when interviewed by federal authorities in February 2007.

     Marine Major Sentenced For Receiving Illegal Gratuities (4/25/2011) The
     U.S. Attorney’s Office, the DCIS, the Naval Criminal Investigative Service, and


                                               45

the Special Inspector General for Iraq Reconstruction jointly prosecuted and
investigated this case.

       The United States sentenced Richard Joseph Harrington, a Major in the
       Marine Corps, to 12 months and one day in prison and one year of
       supervised release. Major Harrington, as a contracting officer’s
       representative, acted as the liaison between contractors and the contracting
       office to inspect and accept products and monitor contractors’
       performance to ensure compliance with the contracts. In that capacity,
       Major Harrington wrongfully solicited and accepted gratuities from a
       contractor on a $2.2 million gym equipment contract with
       Al Jazaer Group. In total, he received three Rolex watches—two from
       Al Jazaer Group and one from another corporation interested in future
       contracts involving non tactical vehicles that Major Harrington flew to
       Dubai to conduct market research on. Although most of Major
       Harrington’s trip to Dubai was paid for by AVA International
       Corporation, Major Harrington filed a travel reimbursement request
       claiming more than $10,000 from the U.S. Government. For the gym
       equipment contract, Major Harrington approved Al Jazaer Group’s last
       invoice and received a total of $35,000 from the contractor.

       Figure 9 is an example of the gym equipment used by U.S. military in
       Iraq.

                              Figure 9. Gym Equipment




              Source: U.S. Defense Imagery Web site.




                                           46

Financial Management
     U.S. Army Reserves Sergeant Pleads Guilty to Conspiracy to Defraud the
     United States Related to Contracting in Support of Iraq War (2/14/2012) The
     Trial Attorney of the Criminal Division’s Fraud Section, the U.S. Army Criminal
     Investigation Command, the DCIS, the Federal Bureau of Investigation, the
     Internal Revenue Service, the Special Inspector General for Iraq Reconstruction,
     and the U.S. Immigration and Customs Enforcement’s Homeland Security
     Investigations jointly prosecuted and investigated this case.

            Sergeant Amasha M. King pleaded guilty to one count of conspiracy to
            defraud the DoD. Sergeant King served at Camp Arifjan, Kuwait, from
            November 2004 to February 2006, in support of Operation Iraqi Freedom
            as part of the 374th Finance Battalion. While in Kuwait, King was
            responsible for receiving and processing pay vouchers and invoices from
            military contractors for various contracts and blanket purchase
            agreements, including blanket purchase agreements for bottled potable
            water. In that capacity, King agreed to receive money from a military
            contractor in return for defrauding the United States by preferentially
            processing the contractor’s invoices outside of the proper procedures and
            protocols for payment. This allowed the contractor to be paid much faster
            than usual and ultimately to bid for more contracts than it otherwise could
            have financed. Sergeant King admitted that she received four wire
            transfers totaling approximately $20,500. King also admitted that she
            instructed the contractor to wire the money to designees in the
            United States and to keep the amounts under $10,000 to avoid bank
            reporting requirements. King faces up to five years in prison and a fine of
            $250,000 or twice the amount of the criminally derived property she
            received. In addition, King has agreed to pay $20,500 in restitution to the
            United States. A sentencing date has not yet been scheduled by the court.

     Scheme to Defraud Government on Reconstruction Contracts Leads to
     Criminal Charges and Civil Penalties for Louis Berger Group, Inc. (11/5/2010)
     The U.S. Attorney’s Office, the Justice Department, the Office of Inspector
     General for U.S. Agency for International Development, the DCIS, the Federal
     Bureau of Investigation, the Office of the Special Inspector General for Iraq
     Reconstruction, and the DCAA jointly prosecuted and investigated this case.

            The Louis Berger Group, Inc. (LBG), a New Jersey-based engineering
            consulting company awarded millions in reconstruction contracts in Iraq
            and Afghanistan, resolved criminal and civil fraud charges related to its
            international work on behalf of the U.S. Agency for International
            Development and the DoD. In addition, two former senior LBG
            employees pleaded guilty to their roles in the scheme. Pepe, LBG’s
            former chief financial officer, and Pellettieri, former Controller, admitted


                                         47

              in court to conspiring to defraud U.S. Agency for International
              Development by obtaining contract payments billed at a falsely inflated
              overhead rate. Pepe directly supervised Pellettieri, who supervised LBG’s
              general accounting division. Both were responsible for ensuring the
              integrity of LBG’s cost data with respect to the calculation of overhead
              rates that LBG charged to U.S. Agency for International Development and
              other agencies. LBG charged the Federal Government these rates on “cost
              plus” contracts, which enabled contractors to pass on their overhead costs
              to the agency in general proportion to how much labor LBG devoted to the
              Government contracts.

Summary
As of March 2012, DCIS had 249 ongoing investigations that were classified into three
predominant investigative categories pertaining to OCO: Public Corruption, Procurement
Fraud, and Theft and Technology Protection. In addition, DCIS reported that between
April 2, 2010, through March 31, 2012, 20 of those investigations resulted in pleas,
sentencings, and fines. These 20 investigations revealed fraudulent activities that
affected 3 contracting areas: Source Selection, Oversight and Surveillance, and Financial
Management. Table 4 on page 49 is a summary of the 20 highlighted investigations.




                                           48

                                                                                            Table 4. Reported Results of DCIS OCO Investigations From April 2, 2010, Through March 31, 2012
  Date                                                                Press Release Title                                                                                   Case Names                                                    Fraud Types                Contracting Areas Impacted by the Fraud
                                                                                                                                                                                                                     Public               Procurement    Theft and    Source       Financial      Oversight
                                                                                                                                                                                                                   Corruption                Fraud      Technology   Selection    Management         and
                                                                                                                                                                                                                                                        Protection                               Surveillance
 3/28/2012      Defendant Worked in Afghanistan Supporting U.S. Military Effort                                                                                                  Wade                                     X                                             X

  3/7/2012      U.S. Army Captain Pleads Guilty to Accepting Illegal Gratuities Related to Contracting in Support                                                               Rutecki                                   X                                                            X
                of Iraq War
  3/2/2012      Former Officers of New Mexico-Based Defense Contractor Charged In Fraud and Money                                                              *Kasper, *B. Christiansen, *S.                             X                   X                         X              X
                Laundering Schemes Related to Rebuilding Efforts in Iraq                                                                                      Christiansen, *White, R. Snobar,
                                                                                                                                                             *Y. Snobar, *Ahmad, and *Aridhi
 2/14/2012      U.S. Army Reserves Sergeant Pleads Guilty to Conspiracy to Defraud the United States Related to                                                             King                                          X                                                            X
                Contracting in Support of Iraq War
 2/13/2012      Former U.S. Army Corps of Engineers Manager Pleads Guilty in Alleged $20 Million Bribery and                                                 Alexander, McKinney, Khan, Lee                               X                   X                         X              X              X
                Kickback Scheme                                                                                                                                Khan, Cho, Hallas, and Babb
12/13/2011      Retired Army Major Sentenced to 24 Months in Prison for Engaging in Money Laundering                                                                     Bowie                                            X                                             X
                Related to Contracting in Support of Iraq War
 12/9/2011      Former Army Corps of Engineers Employee Sentenced to 20 Months in Prison for Accepting                                                                          Manok                                     X                                             X
                Bribes from Iraqi Contractors
10/20/2011      Former Louis Berger Group, Inc. CEO Surrenders to Face Indictment Charging Fraudulent Billing                                                                    Wolff                                                        X                                        X
                Scheme For Iraq, Afghanistan Reconstruction Contracts
 9/22/2011      Former Army Contracting Officials and Defense Contractor Indicted For Bribery and Theft of                                                           Borcuta, Taylor, Close                               X                                 X           X              X
                Government Funds
 9/16/2011      Saudi Arabia-Based Tamimi Global Company to Pay U.S. $13 Million to Resolve Criminal and                                                        Tamimi Global Company Ltd                                 X                                             X
                Civial Allegations of Kickbacks and Illegal Gratuities
 8/16/2011      Retired Army Colonel Sentenced to 12 Months in Prison for Bribery Scheme Involving                                                                               Selph                                    X                                             X
                Department of Defense Contracts in Iraq
 7/15/2011      Jewett City Man Pleads Guilty to Accepting Kickbacks from Military Suppliers in Kuwait                                                                          Szafran                                   X                                             X
 7/14/2011      Former U.S. Army Corps of Engineers Employees and Others Indicted in Multimillion-Dollar                                                     Markus, Gomez, Al-Jobory, Nouri,                             X                                             X                             X
                Bribery, Kickback Scheme Involving Iraq Construction Contracts                                                                                          Al-Fahal
 6/21/2011      U.S. Army Sergeant and Associate Indicted for Alleged Bribe Scheme Involving Contracts at                                                             Evick, Martin,                                      X                                             X
                Camp Arifjan in Kuwait
 6/13/2011      Former U.S. Army Major Pleads Guilty to Bribery Related to Contracting in Support of Iraq War                                                                Shoemake                                     X                                             X                             X
 5/31/2011      Business Owner Sentenced in Bribery Scheme                                                                                                                 Adams, Hand                                    X                                             X
 4/25/2011      Marine Major Sentenced for Receiving Illegal Gratuities                                                                                                 Harrington                                        X                                                            X              X
 11/5/2010      Scheme to Defraud Government on Reconstruction Contracts Leads to Criminal Charges and Civil                                                   Louis Berger Group, Inc., Pete,                                                X                                        X
                Penalties for Louis Berger Group, Inc.                                                                                                                   Pellettieri
 4/21/2010      Army Sergeant Pleads Guilty to Accepting $1.4 Million in Illegal Gratuities Related to Military                                                                 Chase                                     X                                                                           X
                Dining Contracts in Kuwait
 4/15/2010      Former U.S. Army Reserve Officer Pleads Guilty to Accepting Illegal Gratuities Related to                                                                       McLain                                    X                                             X
                Contracting When Serving at Camp Arifjan, Kuwait
                                                                       Total                                                                                                                                              18                   4            1           14              8             5
      *This individual/company has been indicted for the indicated misconduct but has not been convicted. Until such time as they are convicted they are presumed innocent. They are included in this chart solely for analytical purposes.




                                                                                                                                                                           49
Appendix A. Scope and Methodology
We are providing this summary report to help DoD field commanders and contract
managers understand systemic contracting problems related to contingency operations.
To prepare this report, we reviewed the DoD OIG Web site for reports issued from
April 2, 2010, through March 31, 2012. We followed generally accepted auditing
standards in conducting this audit, except for planning and evidence requirements of the
field work standards, because this audit only summarized previously released DoD OIG
reports and investigations. Furthermore, this report included the review of DoD OIG
assessment reports and investigations relating to contingency contracting that were not
required to be conducted in accordance with generally accepted auditing standards. We
did not validate the information or results stated in the reports and investigations
summarized.

We conducted this summary report from March 2012 through August 2012. This report
summarized 38 DoD OIG reports and 20 DCIS investigations. We identified 31 audit
and 7 Special Plans and Operations reports pertaining to contingency contracting. We
then compared the 38 reports to our semiannual reports to Congress to make sure that we
captured all reports containing contingency contracting problems. Further, we
coordinated with applicable DoD OIG offices to confirm the 38 reports.

We reviewed the findings, conclusions, observations, and recommendations contained in
these reports. Based on these reports, we identified nine systemic problem areas in the
contingency contracting process.

       1.   Requirements
       2.   Contract Documentation
       3.   Contract Type
       4.   Source Selection
       5.   Contract Pricing
       6.   Oversight and Surveillance
       7.   Contractor Personnel
       8.   Property Accountability
       9.   Financial Management

In addition, we reviewed press releases provided by DCIS for 20 investigations issued 

from April 2, 2010, through March 31, 2012, to summarize fraudulent activities and 

specific contracting problems. DCIS also identified 249 open investigations pertaining to 

overseas contingency contracting. DCIS classified its work into three investigative

categories: Public Corruption, Procurement Fraud, and Theft and Technology Protection.


We followed up on open recommendations identified in DoD OIG

Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,” May 14, 

2010. 





                                           50

Use of Computer-Processed Data
We did not use or rely on computer-processed data.

Prior Coverage
During the past 5 years, the DoD OIG issued three reports on the summary of audit
reports pertaining to contingency contracting. Unrestricted audit reports can be accesses
at http://www.dodig.mil/audit/reports/.

DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010

DoD IG Report No. D-2009-071, “Summary of DoD Office of Inspector General Audits
of Acquisition and Contract Administration,” April 22, 2009

DoD IG Report No. D-2008-086 “Challenges Impacting Operations Iraqi Freedom and
Enduring Freedom Reported by Major Oversight Organizations Beginning FY 2003
through FY 2007,” July 18, 2008




                                           51

Appendix B. Contracting Problem Areas by Audit Report Matrix 

                                                            Contract                                             Source         Contract                                                                                                                                       Property                    Financial
                        Requirements                      Documentation         Contract Type                   Selection       Pricing                         Oversight and Surveillance                                            Contractor Personnel                   Accountability               Management




                                                                                                                                                                                                                                                 Organizational
                                                                                                                                                                                                                                  Governmental
                                           Requirements
                            Out of Scope




                                                                                                                                                                                                                  Training and
                                                                                                                                                                                                                  Certification
                                                                                                  Commercial




                                                                                                                                                                                                                                                  Conflicts of
                                                                                                                                                        Contracting




                                                                                                                                                                                                                                                                                                                            Obligations
                                                                                                  Acquisition




                                                                                                                                                                                                   Insufficient




                                                                                                                                                                                                                                                                                                  Billing and
                                                                                                                                                                                      Procedures
                                            Policy and




                                                                                      Time-and-




                                                                                                                                                                                                                                   Inherently

                                                                                                                                                                                                                                   Functions




                                                                                                                                                                                                                                                                                                  Payments
                 Changing




                                                                          Cost type




                                                                                                                                                                                                                                                                                                                Potential
                                                                                                                                            Program




                                                                                                                                                                                                                                                                  Personal
                 Unclear/




                                             Training




                                                                                       Material




                                                                                                                                                                                                                                                                  Services
                                                                                                                                                                                       Written
                                                                                                                                                                              DCMA




                                                                                                                                                                                                                                                    Interest
                                                                                                                                                          Officer




                                                                                                                                                                                                                                                                                                                             Funds/
                                                                                                                                             Office




                                                                                                                                                                      CORs




                                                                                                                                                                                                                                                                                                                 ADA
                                                                                                                                                                                                      Staff
Report #s
D-2010-051                                                                                                                                                                    x
D-2010-052                                      x                                                                                                           x                                                         x
D-2010-054                                                                                                         x               x                        x                                                                          x                             x
D-2010-055                                                                                                                                                                                                                                                                                            x             x
D-2010-064                                                                                                         x               x                                                                                                                                                                                x
D-2010-066          x                                           x                                                                                                                        x
D-2010-068                                                                                                                                                  x                            x
D-2010-073                                                      x                                                                                                                                                                                                                                                   x           x
D-2010-078                                                      x                        x                                                                  x         x                                                                x
D-2010-081                                                                               x                                         x                        x                                                                                                                                         x
D-2010-085                                                                                                                                                  x                 x
D-2010-087                                                                 x                                                       x                        x                                                                                                                                                       x
D-2010-088                                                                                                                                                  x                 x                                                                                                    x
D-2010-091          x                                                                                  x                                                    x                 x                                                                                                    x
D-2011-030                                                                                                                                    x                               x                                                        x
D-2011-032                   x                                                                                                                              x                                                                                          x
D-2011-036                                                                               x                         x                                                                                                                                                                                                x
D-2011-043                                                                                                         x               x                        x                                                                                                                                                       x
D-2011-047                                                                                                                         x                        x                            x                                                                                         x                  x             x
D-2011-049                                                                                            x                            x                                                                                                   x
D-2011-061                                                                                                                         x                                          x          x                                                                                                            x
D-2011-066                                                      x                                                                                                                        x
D-2011-078          x                                                                                                              x                        x                                                                                                                      x
D-2011-080                                                      x                                                                                                                                                                                                                                     x             x           x
D-2011-081                                                                               x                                                                                                                                             x               x
D-2011-088                                                                                                                                    x                       x       x                                                        x
D-2011-095                                                                                                                                                                               x             x
D-2011-102                                                                                                                                                                                                                                                                                                          x
D-2011-105                                                                                            x            x
D-2011-113                                                                                                                         x                        x                            x                                                                                                            x
DODIG-2012-023                                                                                                                                                                                                                                                                                        x                         x
DODIG-2012-028      x                                                                                                                                                 x                                                                                                            x
SPO-2010-002                                                                                                                                                                                                                                                                       x
SPO-2011-001                                                                                                                                                                                           x              x                                                            x
SPO-2011-003                                                                                                                                                                                           x              x                                                            x
SPO-2011-002                                    x
SPO-2011-007                                    x                                                                                                                                                                                                                                                     x
SPO-2011-009        x        x                  x
Total                   5          2                 4                5        1             4             2                6          10         2             14        3       7          7              3               3               6               2            1                    8           8             8           3




                                                                                                                                                      52

Appendix C. Comparing Contingency
Contracting Problems Between Current and
Prior DoD OIG Summary Reports
We compared the contingency contracting problems noted in the prior Contingency
Contracting report (DoD OIG Report D-2010-059) with this summary report. These two
summaries covered 72 DoD OIG reports issued during a period of 4 ½ years, from
October 1, 2007, through March 31, 2012. DoD OIG Report D-2010-059 covered
34 reports and this summary report covered 38 reports. The DoD OIG identified
problems in many of the same contracting areas in both reports. For instance, we
continue to observe inadequate oversight of contractor performance.

The following table shows the number of reports discussing each contracting problem
area. Each report may discuss more than one contracting problem area; therefore, the
total number of reports for the third, fourth, and fifth columns do not equal to 34, 38, or
72 reports, respectively.

                   Table. Number of Reports by Contracting Problem Area
    Count       Systemic Contracting    Number of        Number of                                                         Total
                Problem Area            Reports          Reports discussed                                                 Reports
                                        discussed in     in this summary
                                        DoD OIG          report DoD OIG
                                        Report No.       Report No.
                                        D-2010-059       DODIG-2012-134
    1           Requirements                         12                    9                                                          21
    2           Contract Documentation               19                    5                                                          24
    3           Contract Type                         5                    7                                                          12
    4           Source Selection                      4                    6                                                          10
    5           Contract Pricing                     10                  10                                                           20
    6           Oversight and                        24                  24                                                           48
                Surveillance
    7           Contractor Personnel1                32                    7                                                          10
    8           Property Accountability              17                    8                                                          25
    9           Award Fee                             4                    0                                                           4
    10          Financial Management                 10                  14                                                           24
1
  The Contract Personnel problem area includes three subcategories: inherently governmental functions, organizational conflicts of

interest, and personal services.

2
  All three reports identified inherently governmental functions subcategory.



The DoD OIG reported oversight and surveillance problems in more than half of the
reports issued and made recommendations to remedy the conditions. In addition, we
continue to observe problems with contract pricing, source selection, and financial


                                                                 53

management. Nevertheless, we observed fewer problems with contract documentation
and property accountability in this report as compared to the previous summary report.

We hope that field commanders and contract managers will use this summary report to
assist in recognizing and addressing problems in various contingency contracting areas.
Although we observed fewer issues in some areas in this summary report, we caution that
this change may be the result of outlying factors, rather than an overall improvement
within that area. Field commanders and contract managers should continue to be
observant and vigilant during all phases of the contracting process.




                                           54

Appendix D. Status of Open
Recommendations in Prior Contingency
Contracting Summary Report
In the prior DoD OIG summary report on contingency contracting problems, DoD OIG

personnel identified 10 systemic contracting problems with 177 open recommendations *

in 34 reports. We reviewed the status of the open recommendations, as of

August 21, 2012, and determined that 167 of 177 had been closed.


The table below summarizes the current status of the open recommendations identified in 

the prior summary report. 


     Table. Number of Open Recommendations for Each Contracting Problem
  Contracting Problems        Number of Open              Number of
                              Recommendations        Recommendations That
                            in the First DoD OIG         Are Still Open
                              Summary Report
Requirements                            7                       0
Contract Documentation                 13                       0
Contract Type                          10                       0
Source Selection                        4                       0
Contract Pricing                       14                       2
Oversight and Surveillance             60                       3
Inherently Governmental                 8                       0
Functions
Property Accountability                24                       2
Award Fee                               6                       2
Financial Management                   31                       1
Total:                                177                      10

As of August 21, 2012, 10 recommendations from the prior DoD OIG summary report on
contingency contracting problems remain open because of pending actions, such as
contractor appeals on questioned costs, ongoing DCAA audits on contract costs,
continued review of potential duplicate payments, and delays in hiring a qualified
contracting officer to properly close-out a contract.




*
 An open recommendation is a recommendation that we are still tracking to ensure that agreed-upon
actions are implemented.

                                                  55

Appendix E. Fraud Indicators in the
Contracting Process
The need to maintain high ethical standards and procurement integrity is always
important for DOD contracting officers; however, this requirement can be challenging in
a deployed environment where the expectations and business habits of suppliers may be
affected by varying cultural, political, and economic conditions. Additionally, the
pressures to meet mission requirements can be even more intense in a contingency
contracting environment.

Fraud is the misrepresentation of a material fact with the intent to deceive. Fraud may
occur at any stage in the Federal Government procurement process. Although poor
management decisions or negligence may lead to indications of fraud, the difference
between fraud and negligence is intent.

Common fraud offenses include:

   •	   bribery, kickbacks, and gratuities;
   •	   making or using a false statement;
   •	   falsely making or altering a document;
   •	   making or presenting a false claim;
   •	   companies conducting business under several names;
   •	   collusive bidding (bid rigging);
   •	   conflict of interest;
   •	   conspiracy to defraud;
   •	   disclosure of proprietary source selection sensitive information;
   •	   insufficient delivery of contracting items; and
   •	   failure to meet specifications.

Requirements Fraud Indicators
The potential for fraud is created when the need assessment is not adequately or
accurately developed. Sloppy or carelessly written specifications make it easy for a
contractor to overcharge or deliver less than expected. Fraud indicators regarding
requirements definition include, but are not limited to the Government:

   •	 failing to state requirements functionally to the maximum extent possible
      (specifications that are vague make it difficult to reasonably compare estimates);
   •	 defining statements of work and specifications to fit products or capabilities of a
      single contractor, which effectively excludes competition;
   •	 splitting requirements to use simplified acquisition procedures in order to avoid
      review and approval; and
   •	 modifying the contract shortly after award in order to make material changes in
      the requirements or statement of work.


                                            56

Contract Documentation Fraud Indicators
Dishonest individuals may attempt to hide evidence of fraudulent activity by omitting
certain documents from a contract file or including outdated information. Fraud
indicators relating to contract documentation include, but are not limited to:

   •	 a pattern of missing documents or documentation with outdated information in the
      contract file;
   •	 contract documents that are altered, backdated, or modified to cover deficiencies;
   •	 contract awards made without adequate documentation of all pre-award and
      award actions; and
   •	 invoices that do not have adequate supporting documentation or supporting
      documentation is incomplete.

Contract Type Fraud Indicators
In a fixed-price contract, the risk of performance falls on the contractor. Cost-
reimbursement contracts shift the risk of performance to the Government and the
contractor agrees to provide its best effort to complete the contract requirements. The
high risk to the Government in cost-reimbursement contracts may provide an opportunity
for fraud to occur. Specifically, the use of a cost-reimbursement type contract provides
less incentive to the contractor to manage costs. This increases the risk that the
contractor will fraudulently overcharge the government.

Source Selection Fraud Indicators
The contracting officer is required to select the proposal that represents the best value to
the Government. While the contract award process has been designed to efficiently
ensure the delivery of goods and services, the complex procedures involved in source
selection may provide an opportunity for fraud to exist. The fraud indicators relating to
source selection include, but are not limited to:

   •	 improper relationships between Government and contractor personnel;
   •	 the Government’s failure to perform market research to determine evaluation
      factors, contracting method, or whether commercial items or nondevelopmental
      items would meet the Government's needs;
   •	 the Government restricting procurement to exclude or hamper any qualified
      contractor;
   •	 the Government revealing information about procurements to one contractor that
      is not revealed to another;
   •	 the Government accepting late or nonresponsive proposals, or accepting proposals
      from nonresponsible offerors;
   •	 the Government improperly disqualifying offerors;
   •	 the Government exercising favoritism towards a particular contractor during the
      evaluation process;
   •	 the Government awarding contracts to contractors with poor records of

      performance;


                                             57

   •	 the Government awarding contracts that include items other than those contained
      in the bid specifications; and
   •	 the Government’s approval of a justification for less than full and open 

      competition based on improper reasons or inaccurate facts.


Contract Pricing Fraud Indicators
Contracting officers must purchase supplies and services at fair and reasonable prices.
Failure to implement procedures to obtain fair and reasonable prices may create
opportunities for fraudulent activities, including kickbacks, bribes, and gratuities, that
may be unknowingly included in the contract price. Fraud indicators relating to contract
pricing include, but are not limited to:

   •	 the Government not preparing estimates or preparing estimates after solicitations
      are requested;
   •	 the Government and contractor utilizing unqualified personnel to develop cost or
      pricing data used in estimates;
   •	 Government estimates and contract award prices are consistently very close;
   •	 the Government approves items that are of lesser value but the contract cost is not
      reduced; and
   •	 the contractor issuing an engineering change proposal soon after the award of a
      contract.

Collusive bidding, price fixing, or bid rigging are commonly used as interchangeable
terms that describe illegal anti-competitive activity. These are activities that involve
agreements or informal arrangements among competitors to limit competition. Indicators
of these anti-competitive activities include: the existence of fewer than five bidders,
constant winners, constant losers, and close groupings of final bid prices.

Oversight and Surveillance Fraud Indicators
Shortages in quality assurance and surveillance staffing is a major challenge to DOD.
The increasing level of contract support along with urgencies of the war efforts has
spread the availability of quality assurance and surveillance staff thin. Failure to properly
monitor contract performance enables fraud. Fraud indicators related to contract
oversight and surveillance include, but are not limited to:

   •	 contractors awarding subcontracts to unsuccessful bidders;
   •	 the Government providing materials or services to contractors even though
      contractors are being paid to provide the materials or services;
   •	 the administrative contracting officer approving modifications;
   •	 contractors failing to meet terms but no compliance efforts are undertaken;
   •	 the Government certifying receipt of goods without performing inspections;
   •	 the user frequently complaining of poor quality of supplies or services provided
      under a contract - this may indicate that contractors are delivering something less
      than what you are paying for; and
   •	 Untimely and inappropriate closeout of contracts.

                                             58

Contractor Personnel Fraud Indicators
DoD relies on contractors for a wide range of products and services; however, the
Government’s exposure to fraud increases as the roles and relationships between
Government and contractor employees are increasingly entwined. Fraud indicators
include, but are not limited to:

   •	 Increased workloads and responsibilities that prohibit ongoing DOD monitoring
      of each contractor’s work;
   •	 Contractors certifying payments for vendor goods, services, or salaries; and
   •	 Contractors obtaining proprietary information from a Government official when
      information is not available to all competitors.

Property Accountability Fraud Indicators
DoD continues to face ongoing challenges with its ability to accurately account for,
monitor, and report inventory amounts. Fraud indicators relating to property
accountability include, but are not limited, to:

   •	 inadequate management oversight and physical inventory control;
   •	 unreliable property inventory data;
   •	 inventory records disclose unusual patterns when compared to physical inventory
      reviews that cannot be reasonably explained;
   •	 inventory items marked with incorrect disposal condition codes, such as

      repairable or scrap, when they should be labeled excellent; and

   •	 failure to return Government-furnished equipment.

Financial Management Fraud Indicators
Fraud indicators relating to financial management include, but are not limited to:

   •	 the contractor submitting invoices or claims without detail or supporting

      documentation to the Government;

   •	 excess profits on either a specific contract, product line, or division;
   •	 later contractor billings showing a downward adjustment in material costs as
      labor/overhead costs increase;
   •	 the Government paying contractors twice for the same items or services without
      an attempt to recoup the overpayments;
   •	 the Government not regularly reconciling contract payments, daily transactions,
      and inventory;
   •	 the contractors’ failure to correct known system deficiencies;
   •	 contractors or suppliers complaining that they are not being paid in a timely
      manner - this may indicate fraudulent manipulations and diversion of Government
      resources through supply or finance operations; and
   •	 the Government’s failure to deobligate funds.



                                            59

Appendix F. DoD OIG Reports
DoD OIG personnel issued 31 audit reports and 7 SPO reports related to contracting in
contingency operations. All reports can be found online at
http://www.dodig.mil/Audit/reports/index.html.

Audit Reports
DoD IG Report No. DODIG-2012-023, “Management Improvements Needed in
Commander’s Emergency Response Program in Afghanistan,” November 21, 2011

DoD IG Report No. D-2011-113, “Improved Pricing and Oversight Needed for the
Afghan Air Force Pilot and English Language Training Task Order,” September 30, 2011

DoD IG Report No. D-2011-105, “Competition for Interrogation Arm Contracts Needs
Improvement,” September 19, 2011

DoD IG Report No. D-2011-102, “Afghan National Police Training Program Would
Benefit From Better Compliance With the Economy Act and Reimbursable Agreements,”
August 25, 2011

DoD IG Report No. D-2011-095, “Afghan National Police Training Program: Lessons
Learned During the Transition of Contract Administration,” August 15, 2011

DoD IG Report No. D-2011-088, “Ballistic Testing for Interceptor Body Armor Inserts
Needs Improvement,” August 1, 2011

DoD IG Report No. D-2011-081, “Contract Management of Joint Logistics Integrator
Services in Support of Mine Resistant Ambush Protected Vehicles Needs Improvement,”
July 11, 2011

DoD IG Report No. D-2011-080, “DoD and DOS Need Better Procedures to Monitor and
Expend DoD Funds for the Afghan National Police Training Program,” July 7, 2011

DoD IG Report No. D-2011-078, “Contracts Supporting Base Operations in Kuwait Need
Stronger Management and Administration,” June 30, 2011

DoD IG Report No. D-2011-066, “Incomplete Contract Files for Southwest Asia
Task Orders on the Warfighter Field Operations Customer Support Contract,” June 1,
2011

DoD IG Report No. D-2011-061, “Excess Inventory and Contract Pricing Problems
Jeopardize the Army Contract With Boeing to Support the Corpus Christi Army Depot,”
May 3, 2011




                                          60

DoD IG Report No. D-2011-049, “Competition Issues and Inherently Governmental
Functions Performed by Contractor Employees on Contracts to Supply Fuel to
U.S. Troops in Iraq,” March 15, 2011

DoD IG Report No. D-2011-047, “Improvements Needed in Contract Administration of
the Subsistence Prime Vendor Contract for Afghanistan,” March 2, 2011

DoD IG Report No. D-2011-043, “Improvements Needed on the Fleet and Industrial
Supply Center, Sigonella, Ship Maintenance Contracts in Southwest Asia,” February 22,
2011

DoD IG Report No. D-2011-036, “Competition Should Be Used for Instructor Services
for the Mine Resistant Ambush Protected Vehicles,” February 3, 2011

DoD IG Report No. D-2011-032, “Logistics Civil Augmentation Program Support
Contract Needs to Comply With Acquisition Rules,” January 7, 2011

DoD IG Report No. D-2011-030, “Ballistic Testing and Product Quality Surveillance for
the Interceptor Body Armor-Vest Components Need Improvement,” January 3, 2011

DoD IG Report No. D-2010-091, “DoD Needs to Improve Management and Oversight
of Operations at the Theater Retrograde-Camp Arifjan, Kuwait,” September 30, 2010

DoD IG Report No. D-2010-088, “Accountability and Disposition of Government
Furnished Property in Conjunction with the Iraq Drawdown-Logistics Civil
Augmentation Program,” September 30, 2010

DoD IG Report No. D-2010-087, “Weaknesses in Oversight of Naval Sea Systems
Command Ship Maintenance Contract in Southwest Asia,” September 27, 2010

DoD IG Report No. D-2010-085, “Kuwait Contractors Working in Sensitive Positions
Without Security Clearances or Common Access Cards,” September 22, 2010

DoD IG Report No. D-2010-081, “Army Use of Time-and-Materials Contracts in
Southwest Asia,” August 27, 2010

DoD IG Report No. D-2010-078, “Air Force Use of Time-and-Materials Contracts in
Southwest Asia,” August 16, 2010

DoD IG Report No. D-2010-073, “Controls Over Unliquidated Obligations for
Department of the Army Contracts,” June 19, 2010

DoD IG Report No. D-2010-068, “Government Oversight of Field Service
Representative and Instructor Services in Support of the Mine Resistant Ambush
Protected Vehicle Program,” June 17, 2010



                                          61

DoD IG Report No. D-2010-066, “Oversight of the U.S. Air Forces Central War Reserve
Materiel Contract,” May 28, 2010

DoD IG Report No. D-2010-064, “Army Vessels Maintenance Contracts in Southwest
Asia,” May 21, 2010

DoD IG Report No. D-2010-054, “Advisory and Assistance Services Contracts in
Support of the Air Force Combat Search and Rescue Helicopter,” May 4, 2010

DoD IG Report No. D-2010-055, “Medical/Surgical Prime Vendor Contract Supporting
Coalition Forces in Iraq and Afghanistan,” April 29, 2010

DoD IG Report No. D-2010-052, “Efforts to Prevent Sexual Assault/Harassment
Involving DoD Contractors During Contingency Operations,” April 16, 2010

DoD IG Report No. D-2010-051, “Defense Contract Management Agency Acquisition
Workforce for Southwest Asia,” April 8, 2010

Special Plans and Operations Reports
DoD IG Report No. DODIG-2012-028, “Assessment of U.S. Government and Coalition
Efforts to Develop the Logistics Sustainment Capability of the Afghan National Army,”
December 9, 2011

DoD IG Report No. SPO-2011-009, “Exposure to Sodium Dichromate at Qarmat Ali Iraq
in 2003: Part II -Evaluation of Army and Contractor Actions Related to Hazardous
Industrial Exposure,” September 28, 2011

DoD IG Report No. SPO-2011-007, “Assessment of the U.S. Department of Defense
Efforts to Develop an Effective Medical Logistics System Within the Afghan National
Security Forces,” June 14, 2011

DoD IG Report No. SPO-2011-003, “Assessment of U.S. Government Efforts to Train,
Equip, and Mentor the Expanded Afghan National Police,” March 3, 2011

DoD IG Report No. SPO-2011-002, “Evaluation of DoD Contracts Regarding Combating
Trafficking in Persons: U.S. Central Command,” January 18, 2011

DoD IG Report No. SPO-2011-001, “Assessment of U.S. Government Efforts to Develop
the Logistics Sustainment Capability of the Iraq Security Forces,” November 17, 2010

DoD IG Report No. SPO-2010-002, “Review of Intra-Theater Transportation Planning,
Capabilities, and Execution for the Drawdown from Iraq,” April 20, 2010




                                          62

    Department of Defense
  Office of Inspector General
   4800 Mark Center Drive
  Alexandria, VA 22350-1500
­
This report is available online at: 

        www.dodig.mil


                                                                                  United States Department of Defense
                                                                                  Office of Inspector General



                                                                                     Contingency Contracting:
                                                                                     A Framework for Reform
                                                                                          2012 Update
                                          DEPARTMENT OF DEFENSE

                                                Hotline

                                        1-800-424-9098 • DSN: 312-664-1151
­   Report No. DODIG-2012-134   September 18, 2012
